<html>
<title> - 9/11 HEALTH EFFECTS: FEDERAL MONITORING AND TREATMENT OF RESIDENTS AND RESPONDERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
9/11 HEALTH EFFECTS: FEDERAL MONITORING AND TREATMENT OF RESIDENTS AND 
                               RESPONDERS
=======================================================================



                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2007

                               __________

                            Serial No. 110-2

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                      U.S. GOVERNMENT PRINTING OFFICE
34-912 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
CHRISTOPHER S. MURPHY, Connecticut   TODD RUSSELL PLATTS, Pennsylvania,
PETER WELCH, Vermont                 JOHN J. DUNCAN, Jr., Tennessee
CAROLYN B. MALONEY, New York
                    Michael McCarthy, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 28, 2007................................     1
Statement of:
    Agwunobi, Admiral John O., M.D., MBA, MPH, Assistant 
      Secretary for Health, Department of Health and Human 
      Services; and John Howard, M.D., MPH, J.D., Director, 
      National Institute for Occupational Health, Centers for 
      Disease Control and Prevention, Department of Health and 
      Human Services.............................................    19
        Agwunobi, John O.........................................    19
    Gibbs, Linda I., co-Chair of Mayor Bloomberg's World Trade 
      Center Health Panel and New York City deputy mayor for 
      health and human services; Edward Skyler, co-Chair of Mayor 
      Bloomberg's World Trade Center Health Panel and New York 
      City deputy mayor for administration, accompanied by Joan 
      Reibman, M.D., associate professor of medicine and 
      environmental medicine, director NYU/Bellevue Asthma 
      Center, director of Bellevue WTC Environmental Health 
      Center; David Prezant, M.D., chief medical officer, Office 
      of Medical Affairs, co-director, WTC Medical Monitoring and 
      Treatment Programs, New York City Fire Department; Eli J. 
      Kleinman, M.D., supervising chief surgeon, New York Police 
      Department; Robin Herbert, J.D., director, World Trade 
      Center Medical Monitoring Program Data and Coordination 
      Center, associate professor, Department of Community and 
      Preventive Medicine, Mount Sinai School of Medicine; 
      Jonathan Sferazo, disabled union iron worker; and Marvin 
      Bethea, paramedic..........................................    43
        Bethea, Marvin...........................................    88
        Gibbs, Linda I...........................................    43
        Herbert, Robin...........................................    77
        Sferazo, Jonathan........................................    92
        Skyler, Edward...........................................    52
Letters, statements, etc., submitted for the record by:
    Agwunobi, Admiral John O., M.D., MBA, MPH, Assistant 
      Secretary for Health, Department of Health and Human 
      Services, prepared statement of............................    21
    Bethea, Marvin, paramedic, prepared statement of.............    90
    Fossella, Hon. Vito, a Representative in Congress from the 
      State of New York, prepared statement of...................    10
    Gibbs, Linda I., co-Chair of Mayor Bloomberg's World Trade 
      Center Health Panel and New York City deputy mayor for 
      health and human services, prepared statement of...........    46
    Herbert, Robin, J.D., director, World Trade Center Medical 
      Monitoring Program Data and Coordination Center, associate 
      professor, Department of Community and Preventive Medicine, 
      Mount Sinai School of Medicine, prepared statement of......    80
    Kleinman, Eli J., M.D., supervising chief surgeon, New York 
      Police Department, prepared statement of...................    74
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    99
    Nadler, Hon. Jerrold, a Representative in Congress from the 
      State of New York, prepared statement of...................     5
    Prezant, David, M.D., chief medical officer, Office of 
      Medical Affairs, co-director, WTC Medical Monitoring and 
      Treatment Programs, New York City Fire Department, prepared 
      statement of...............................................    67
    Reibman, Joan, M.D., associate professor of medicine and 
      environmental medicine, director NYU/Bellevue Asthma 
      Center, director of Bellevue WTC Environmental Health 
      Center, prepared statement of..............................    60
    Sferazo, Jonathan, disabled union iron worker, prepared 
      statement of...............................................    94
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............   111
    Skyler, Edward, co-Chair of Mayor Bloomberg's World Trade 
      Center Health Panel and New York City deputy mayor for 
      administration, prepared statement of......................    55
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    16


9/11 HEALTH EFFECTS: FEDERAL MONITORING AND TREATMENT OF RESIDENTS AND 
                               RESPONDERS

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2007

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12 p.m., in 
room 2247, Rayburn House Office Building, Hon. Edolphus Towns 
(chairman of the subcommittee) presiding.
    Present: Representatives Towns, Murphy, Welch, Maloney, 
Nadler, Bilbray, Duncan, Platts, and Fossella.
    Staff present: Michael McCarthy, staff director; Rick 
Blake, professional staff member; Velvet Johnson, counsel; 
Cecelia Morton, clerk; Lakeshia Myers, editor and staff 
assistant; Susie Schulte and Christopher Bright, minority 
professional staff members; and Benjamin Chance, minority 
clerk.
    Mr. Towns. The subcommittee will come to order. Welcome to 
today's hearing to help the thousands of New York City 
residents who were exposed to dangerous toxins after the 
terrorist attacks on the World Trade Center. This is the first 
hearing of the Government Management Subcommittee in this 
Congress. We are taking on the issue of 9/11 health effects for 
two reasons: First, it is a sign of how important this issue is 
for the House Oversight Committee. Second, we want to continue 
the bipartisan work that was done on this issue in the previous 
Congress and set the tone for continued cooperation in this 
subcommittee to make sure our 9/11 responders and affected 
residents get the health care they need. We also want to work 
toward our larger goal of making sure Government is working 
effectively and efficiently for all Americans.
    I have invited several members of the New York City 
delegation, and Mr. Shays, to be here today, and I would ask 
unanimous consent that they be able to participate in this 
hearing. It is our practice to recognize members of the 
committee first, then after that, we can go to other Members 
who are present. We also have with us Congressman Nadler, who 
is from New York, and of course, from within the district in 
which the incident occurred. We are delighted to have him with 
us and we will extend the same courtesy to him. Hearing no 
objection, that's an affirmative.
    We also have here my colleague from New York, Mr. Fossella. 
I would also like to thank my colleague, Mrs. Carolyn Maloney, 
who I understand is on her way. She has also played a great 
role in planning today's hearing and I want to thank her for 
that. Mrs. Maloney has been called to the House floor.
    Due to time constraints, the Chair and ranking member will 
each have 5 minutes to make opening statements. I don't like to 
do that, but on this particular day we will have no choice. So 
at this time, I would like to yield to the ranking member.
    Mr. Bilbray. Thank you, Mr. Chairman. Mr. Chairman, I 
appreciate the fact that the bipartisan team from the region 
that was attacked so terribly so many years ago, and that is 
living with the problems and the repercussions of that attack 
by Al Qaeda every day, I think that bipartisan approach is what 
American people not only want but expect from us, and I 
appreciate the fact that on this issue we have given, I think, 
the American people the kind of leadership that they have been 
desiring.
    Mr. Chairman, I think that we need to remember that this 
wasn't just an incident, it was an attack by a foreign body 
against the people of the United States, not just an incident 
in New York. The terrorist attack was unprecedented. The 
response was appropriate in the matter of the American people 
call to arms and to protect our neighbors. The impact of the 
response, and let me just say this, those of us that are 
involved in emergency response understand it. Those of you that 
have never been in an emergency team may not. But to ask a 
firefighter, a paramedic, a lifeguard, a police officer not to 
respond to this kind of incident is asking for the world not to 
spin for 24 hours, asking to fight the laws of nature. Those of 
us who are involved in emergency response, a response is 
natural and immediate, and is not voluntary. You go in because 
that is what you do.
    I think that kind of response is what we desperately need 
in this country. We have to understand the repercussions of 
that kind of response is something we need to address.
    It is not an issue that just affects New York and 
Connecticut and the surrounding areas. We had responders from 
San Diego getting out and going into the area as quickly as 
possible. This is a national issue. It was an attack by foreign 
powers on U.S. soil, but it was a response by all of America.
    I think the brave individuals who exposed themselves to the 
toxics, to all of the environmental threats here, need to be 
addressed here. We need to remind ourselves that the problems 
have not gone away. They are with us today. I think the 
President including $25 million in the budget for the coming 
year as placing a placeholder is a step in the right direction. 
But I think that we need to make sure that what resources we 
put to addressing the problems are as effective and 
comprehensive as possible.
    Finally, let me say, there is no disagreement with the fact 
that things could have been done better. All I have to say is 
that anyone who has ever managed an emergency response effort 
will always know that after the response, there is a process 
that we call debriefing, where everyone understands there are 
things that could have been done better. There were breakdowns 
in systems, that emergency response, much like war, is 
organized chaos. And you just hope to minimize that level of 
chaos and inefficiency.
    So hopefully, we will be able to build from and learn from 
that, move forward from here. Again, Mr. Chairman, I appreciate 
the chance to have this hearing. I hope we all remember that 
this was not a natural disaster. This wasn't something that 
happened to one State or one community. This was an attack by a 
foreign power directed at the American people. And the target 
here happened to be New York and Washington, DC.
    But it just happened to hit those two cities because the 
people wanted to strike at the American people, not New Yorkers 
or Washingtonians. I think that is one of the things that all 
of us need to remember. Again, this was an attack by a foreign 
power, this was caused by an attack by a foreign power and we 
have to remind ourselves again and again that the enemy is 
still out there. The enemy created this situation and we need 
to make sure we address it appropriately.
    At this time, I will yield back, Mr. Chairman.
    Mr. Towns. Thank you very much. We will give each Member 2 
minutes for an opening statement. We have time restrictions, 
let me go to Mr. Nadler from New York.
    Mr. Nadler. Thank you, Mr. Chairman. Let me say at the 
beginning I appreciate the consideration shown to me to enable 
me to sit in on this hearing, though I am not a member of this 
committee. I have an opening statement which I would ask be put 
into the record. It is considerably longer than 2 minutes, I 
won't read it now.
    Mr. Towns. Without objection, so ordered.
    Mr. Nadler. Thank you. Let me just say that I hope that 
this is the first of a series of hearings, both in this 
committee and other committees in the House, and I know Senator 
Clinton is going to hold a hearing in the Senate, that will 
begin to deal with these problems.
    I have had to spend the better part of my last 5 years in 
public life cajoling the Federal Government to tell the truth 
to its citizens about 9/11 air quality, insisting that there 
must be a full and proper cleanup of the 9/11 environmental 
toxins that to this day are still poisoning New Yorkers, 
because they were never properly cleaned up, and for those 
already sick, demanding that the Government provide long-term 
comprehensive health care. I hope that today's hearing will be 
the beginning of a process under which we can achieve what I 
believe are the four things that we must achieve.
    First, to increase and expand the Federal funds that are 
beginning to be made available to provide for long-term 
monitoring and treatment of all the victims of 9/11. Second, to 
bring into this process and to be clear that we are covering 
and giving the same help to residents and workers, not just to 
first responders, because it is clear that residents and 
workers in lower Manhattan and Brooklyn, maybe in Queens, we 
are not even sure where, were also affected by this.
    Third, to get the Federal Government to do the proper 
inspection and environmental cleanup of New York and possibly 
New Jersey that was recommended by the EPA Inspector General 3 
years ago, without which we will continue to poison people for 
decades to come, unknowingly, from toxins that are still 
present inside buildings, city government buildings, State 
government buildings, and regular non-government buildings all 
over perhaps Manhattan, Brooklyn, Queens, northern New Jersey, 
for all we know.
    And finally, that there should be a comprehensive medical 
screening and long-term care system put into place for all 
these people that is not dependent on annual appropriations in 
the future from Congresses and Presidents who may be more or 
less sympathetic or ignorant than this Congress is in the 
future. Because this problem is going to be with us for the 
next 30 or 40 or 50 years.
    So I hope this is the beginning of this process, and I 
thank you, Mr. Chairman.
    [The prepared statement of Hon. Jerrold Nadler follows:]
    [GRAPHIC] [TIFF OMITTED] 34912.001
    
    [GRAPHIC] [TIFF OMITTED] 34912.002
    
    [GRAPHIC] [TIFF OMITTED] 34912.003
    
    [GRAPHIC] [TIFF OMITTED] 34912.004
    
    Mr. Towns. You can be assured that we will be holding 
additional hearings because this is a very important issue.
    Now let me recognize the person who was the Chair of this 
subcommittee in the last Congress, who did a magnificent job, 
while setting a model in terms of how important it is to work 
together in a bipartisan fashion. I want to say to you, Mr. 
Platts, that I plan to continue in that same spirit.
    Mr. Platts. Thank you, Mr. Chairman. I don't have a formal 
opening statement either, but I do commend you for holding this 
hearing today. I especially want to congratulate you, Mr. 
Chair. It was an honor to serve as Chair of this subcommittee 
and it is indeed an honor to serve with you. Thank you, Mr. 
Chairman.
    Mr. Towns. Thank you very much.
    Now Congressman Murphy.
    Mr. Murphy. Thank you, Mr. Chairman. I don't have a formal 
opening statement, either, except to say that it is a great 
honor, as a new Member, to be sitting here with both you and 
Ranking Member Bilbray as well as our colleagues from New York 
who have led this fight so valiantly, paying no attention to 
party or ideology. My only point of introduction is to say that 
Connecticut also sent many brave men and women down in those 
days, weeks, and months, following that tragic event and are 
now suffering from those same very effects that have befallen 
those in the districts of Mr. Nadler and Mr. Fossella and so 
many others who have fought for this issue.
    So I am very happy and honored to be part of this 
subcommittee and very glad that this is our opening salvo as a 
subcommittee into an issue which has great regional importance 
for the Connecticut-New York-New Jersey region. Thank you.
    Mr. Towns. Thank you. Let me turn to my colleague from New 
York, Congressman Fossella.
    Mr. Fossella. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Vito Fossella follows:]
    [GRAPHIC] [TIFF OMITTED] 34912.005
    
    [GRAPHIC] [TIFF OMITTED] 34912.006
    
    [GRAPHIC] [TIFF OMITTED] 34912.007
    
    [GRAPHIC] [TIFF OMITTED] 34912.008
    
    Mr. Towns. Thank you very much, Mr. Fossella.
    The attacks that destroyed the World Trade Center on 
September 11, 2001 created a human tragedy on an enormous 
scale. That day we knew immediately that thousands had lost 
their lives in the collapse of the Twin Towers. What we now 
know is that the toxic environment created when the towers 
collapsed claimed still more victims. First responders, rescue, 
recovery and clean-up workers, volunteers from all 50 States, 
area residents, office workers, and school children. All may 
have been exposed to a range of dust, smoke and toxic 
pollutants.
    Sometimes when people are hurt or killed in an accident, we 
say that they were in the wrong place at the wrong time. For 
the responders who rushed to the scene of the World Trade 
Center on 9/11, and those who worked on and around the pile 
afterwards, it is just the opposite. They were in the right 
place at the right time, doing their jobs, coming to the aid of 
their fellow citizens at the hour of greatest need. Now many 
are suffering from a wide range of diseases and disabilities 
and require medical care. It is our obligation as a Nation to 
make sure they get the care they need.
    The range of people who are now ill goes beyond just those 
responders who were working at or around Ground Zero right 
after the attacks. The collapse of the towers created an 
enormous dust cloud that covered lower Manhattan, then blew 
east across the river and through Brooklyn. New York City 
residents and workers were exposed to these toxins with some 
developing serious illnesses. They too, are victims of 9/11. 
The Government has an obligation to treat people who have 
become sick and monitor those who were exposed to toxins so we 
can identify, and prevent if possible, diseases that emerge 
from people whose lives have been greatly disrupted.
    Today's hearing will examine what the Federal Government is 
doing to help those suffering from 9/11-related illnesses. The 
answer is ``not enough.'' More than 5 years have passed since 
9/11, and just recently the Federal Government has finally put 
in place some medical monitoring and treatment programs. These 
programs are doing good work and we will hear from the doctors 
who are treating patients with 9/11-related diseases.
    But why has this happened so late? The Federal programs we 
have right now suffer from two serious flaws. The first is that 
they are not inclusive enough. The programs cover those who 
worked and volunteered on the rescue and recovery effort, but 
there is no Federal program for residents who were affected by 
the toxins in the air. Not only is there no Federal plan to 
treat these residents, there is not even a program to monitor 
them and gather essential data that may help us track and treat 
9/11-related illnesses.
    The second problem is that the existing programs lack 
sufficient and sustained funding. The programs are running out 
of money and will have to shut down if this shortfall isn't 
addressed. We have a temporary fix from the administration, 
which is helpful, but we need something more permanent. Some of 
the serious health effects from 9/11 are illnesses like post-
traumatic stress disorder. The last thing people suffering from 
these types of illnesses need is fear and uncertainty that 
their treatment will be cutoff due to lack of funding.
    The administration says they are working on a plan, but 
even now it is not clear if that plan will include everyone who 
was exposed and everyone who is sick. Five and a half years 
after 9/11, we need to have something better than what we have 
now, and we need to have it right now.
    I look forward to hearing from our doctors and first 
responders about what the medical needs are, and from our 
government witnesses what they are doing to create inclusive 
and sustainable medical monitoring and treatment programs.
    The government has to do more to help people who are still 
suffering from the effects of 9/11. I hope we can learn more 
today about how to help, and then work together to make sure it 
happens.
    [The prepared statement of Hon. Edolphus Towns follows:]
    [GRAPHIC] [TIFF OMITTED] 34912.009
    
    [GRAPHIC] [TIFF OMITTED] 34912.010
    
    [GRAPHIC] [TIFF OMITTED] 34912.011
    
    Mr. Towns. At this time, I would like to ask the witnesses 
to please stand to be sworn in.
    [Witnesses sworn.]
    Mr. Towns. Our first panel is made up of two physicians and 
leaders from the Department of Health and Human Services, Dr. 
John Agwunobi, Assistant Secretary for Health at the Department 
of Health and Human Services. He is also an Admiral leading the 
Commissioned Corps of the U.S. Public Health Service.
    We also have with us Dr. John Howard, who is the Director 
of the National Institute for Occupational Safety and Health at 
HHS. He is a board certified specialist in internal medicine 
and occupational medicine, as well as an attorney, and serves 
as a Federal 9/11 health coordinator at HHS.
    Why don't we just start with you, Dr. Agwunobi?

    STATEMENTS OF ADMIRAL JOHN O. AGWUNOBI, M.D., MBA, MPH, 
ASSISTANT SECRETARY FOR HEALTH, DEPARTMENT OF HEALTH AND HUMAN 
SERVICES; AND JOHN HOWARD, M.D., MPH, J.D., DIRECTOR, NATIONAL 
INSTITUTE FOR OCCUPATIONAL HEALTH, CENTERS FOR DISEASE CONTROL 
    AND PREVENTION, DEPARTMENT OF HEALTH AND HUMAN SERVICES

                 STATEMENT OF JOHN O. AGWUNOBI

    Dr. Agwunobi. Good afternoon, Chairman Towns and 
distinguished members of the subcommittee. As was just 
indicated, my name is John Agwunobi and I am indeed the 
Assistant Secretary for Health for the U.S. Department of 
Health and Human Services.
    Beside me is a close colleague and friend, Dr. John Howard. 
He is the Director of NIOSH.
    I thank you for holding this hearing on the Federal 
response to the health impacts of 9/11. On September 11, 2001, 
within hours of that terrorist attack, HHS, our Department, 
dispatched the first group of emergency medical and mortuary 
teams to the New York City area to assist local emergency 
personnel and health providers in caring for those affected by 
the terrorist attacks on the World Trade Center.
    Within 8 days of the attacks, the Federal Government and 
the State of New York jointly created and implemented a 
disaster relief Medicaid waiver. Now, this Federal Government 
waiver, which was provided to the State of New York as a 
Medicaid program, was to the tune of about $333 million. It was 
designed to support the treatment of individuals affected. Over 
340,000 individuals eventually enrolled and were able to access 
the full array of medical benefits and treatments that were 
offered through that waiver.
    Between 2001 and 2002, the Department released over $239 
million, which went to support health centers and hospitals, 
mental health programs and environmental monitoring, and 
research in and around New York City for that same purpose. In 
early 2002, NIOSH developed a baseline medical screening 
program to address the gap in medical screening of World Trade 
Center responders. This program was subsequently expanded in 
2004 to provide long-term medical monitoring for the World 
Trade Center rescue and recovery workers and volunteers, 
including current and retired New York City firefighters. The 
medical monitoring program has now conducted more than 30,000 
initial examinations and 17,000 followup examinations since its 
inception back in 2002.
    In 2002, the World Trade Center health registry was 
established. This registry collects self-reported survey data 
to evaluate potential short and long-term physical and mental 
health effects of the exposure to the disaster. So far, more 
than 71,000 individuals are currently enrolled in that 
registry.
    In 2006, $75 million was provided to further support 
existing HHS World Trade Center programs and to provide 
treatment to responders, rescue workers and recovery workers. 
Thus far, based on the reports from those responders and our 
partners and our analysis of some scientific analysis, 
Secretary Leavitt decided that we needed to do more. He 
established an internal task force which I chair, and Dr. John 
Howard is the task force's co-chair.
    The mission of the task force is to provide the Secretary 
with an analysis of all the available data that we can get our 
hands on related to the World Trade Center associated health 
conditions, so that the administration can devise a pathway to 
the future, a pathway that addresses the needs of care and the 
needs for more research. The World Trade Center task force is 
comprised of top science and health policy experts from 
throughout the Department of Health and Human Services. It 
actually began meeting back in October of last year.
    HHS continues to collect information pertaining to 9/11 
health effects and is committed, absolutely committed, to 
providing passionate and appropriate support to the responders 
affected by the World Trade Center, those that were exposed 
following the terrorist attacks. The President's fiscal year 
2008 budget does indeed include $25 million for the 
continuation of treatment for the World Trade Center 
responders. The administration intends to review this budget 
request, using all the data that we gather in our analysis, the 
task force's work, as we look to the future.
    Sir, I thank you again for this opportunity. I know that 
Dr. Howard and I would be happy to answer questions. I would 
just end by saying, we believe that this is a very important, 
very, very important duty that we have been given, to analyze 
and review the data in order to further advise the Secretary. I 
have no doubt that he, upon hearing from us, will enter into 
dialog with Congress and the administration. I look forward to 
working alongside all of you, sir.
    [The prepared statement of Dr. Agwunobi follows:]
    [GRAPHIC] [TIFF OMITTED] 34912.012
    
    [GRAPHIC] [TIFF OMITTED] 34912.013
    
    [GRAPHIC] [TIFF OMITTED] 34912.014
    
    [GRAPHIC] [TIFF OMITTED] 34912.015
    
    [GRAPHIC] [TIFF OMITTED] 34912.016
    
    [GRAPHIC] [TIFF OMITTED] 34912.017
    
    [GRAPHIC] [TIFF OMITTED] 34912.018
    
    [GRAPHIC] [TIFF OMITTED] 34912.019
    
    [GRAPHIC] [TIFF OMITTED] 34912.020
    
    [GRAPHIC] [TIFF OMITTED] 34912.021
    
    [GRAPHIC] [TIFF OMITTED] 34912.022
    
    Mr. Towns. Thank you very much.
    Dr. Howard.
    Dr. Howard. Mr. Chairman, I don't have a written statement, 
I am in a supporting role today.
    Mr. Towns. We thank you very much.
    Let me begin by asking a few questions about the task 
force. First of all, when will we get the report from the task 
force?
    Dr. Agwunobi. Mr. Chairman, the task force, our work is 
largely analytical in nature. We gather data, we review that 
data and we are supposed to advise and inform the Secretary 
with what we find. We currently are not engaged in the writing 
of a report for public dissemination. We are actually engaged 
in trying to review all the information so that we can advise 
the Secretary.
    Mr. Towns. Now, are you including the area residents in 
this? This is a serious problem, as you heard from some of our 
colleagues in the opening statements.
    Dr. Agwunobi. Very clearly there are many unanswered 
questions that relate to residents. I have no doubt that there 
will be much dialog and discussion going forward on that 
subject. But the work of the task force that John and I chair, 
Dr. Howard and I chair, is focused on the responders to the 
event, firefighters, volunteers, retired workers, those that 
responded to the event, in the day of and the days following.
    Mr. Towns. Well, there is a school that was in the area and 
they are complaining. It is a high school, and they are saying 
that as a result of 9/11, that many young people now are having 
health problems. So I was just wondering, would you include 
them in it somehow? I am saying I think we should make 
treatment and care inclusive.
    Dr. Agwunobi. Yes, sir. The Secretary has asked us to 
report back to him quickly with the data that we have, the 
analysis of the information that we have. We will do that. If 
the Secretary then asks us to go on and review further data or, 
I have no doubt, as I have said, that there will be dialog on 
that issue going forward.
    Mr. Towns. When will residents have access to the Federal 
programs?
    Dr. Agwunobi. Following our completion of our analysis and 
our presentation to the Secretary, Michael Leavitt, as to the 
breadth, the scope, the issues involved in this particular 
situation, I have no doubt, as I have said, that he will engage 
in dialog. That dialog will no doubt include Congress and the 
rest of the administration. It is a little unclear to me, sir, 
as to the exact time lines, as to that process. I imagine you 
will be a part of that process as well.
    But the current programs, as they were appropriated, the 
appropriations for the current programs focus the programs on 
responders, not on the residents. We are speaking now about the 
program at Mount Sinai and the associated program at FDNY. My 
understanding is that the Bellevue program, which has funding 
from, I think a little bit of funding from the Federal 
Government, most of its funding is from the city. That program 
does actually allow residents into access for treatment.
    Mr. Towns. Right. Well, will we know about it within 3 
months, 6 months, a year? I hate to push you, but we need to 
know.
    Let me just say this. I don't see this as a blame 
situation. I think we all have to work on this together. I 
think that we need certain information for us to be of 
assistance. I think that we are talking about the lives of 
people from all over this country, all 50 States. We are 
talking about young people in high school, and of course, they 
are now complaining.
    And these are issues that I think we have to recognize and 
have to find ways and methods to deal them. So that is the 
reason why I am really trying to push you on a timeframe.
    Dr. Agwunobi. Sir, I would concur that urgency is important 
in this situation. There are real people out there suffering 
and there are individuals who are in need. Our process is 
designed to try and gather data so we can use that data to 
design programs for the future.
    The Secretary has been very, very straight on this with me. 
He wants us to go as fast as we can, but he wants our analysis 
to be based on data, as much data as we can gather. He has 
indicated that he wants us to brief him in March, and we will. 
But that, as I have said, is a part of a process that would no 
doubt include dialog with the administration and indeed, with 
Congress.
    Mr. Towns. Thank you. I yield to the ranking member, Mr. 
Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. I apologize for 
turning your mic off. Like everything else in this town, 
everything operates opposite of the rest of the world.
    Mr. Towns. Oh, you turned my mic off? [Laughter.]
    Mr. Bilbray. Yes, I just turned myself off, too. It's 
typical, this is the only town where you un-push something to 
get it to turn on.
    Let me first ask, the city of New York and the locals seem 
to be doing a very aggressive approach to this health risk 
assessment. Frankly, as somebody who comes from the local, I 
was a disaster preparedness chairman for a small, intimate 
group of 3 million people in San Diego County. I prefer to have 
the local people do as much as humanly possible, because they 
tend to be more efficient, more sensitive and more effective. 
But there is a situation where this impacted and affected not 
just one municipality, it had a broad, regional impact. What 
are we doing about monitoring the impacts on the areas outside 
of the city of New York, in the adjacent areas? What kind of 
response are we getting there?
    Dr. Agwunobi. If I may, I am going to turn over to my 
colleague who has been involved in the monitoring from the very 
beginning. But I will say that the work of the task force today 
does contemplate what you just said, the fact that even if it 
is not a big portion of the individuals that are affected that 
live outside of New York today, in the future it might be, as 
people retire and move around the country. So as we think this 
through, as we perform this analysis, we are contemplating the 
notion that it might need to be something that has, whether it 
be quality, access or cost, it needs to have a national scope 
to it in terms of our thinking and our planning.
    I will turn over to my colleague, Dr. Howard, if you want 
to add on what we have done so far.
    Dr. Howard. Sure. Mr. Bilbray, as a fellow San Diegan, I am 
certainly very much aware of all the search and rescue and 
disaster medical assistance teams that came from all over the 
United States. Actually, when we have looked at that population 
of national responders, we find them in about 2,000 different 
zip codes throughout the United States. So it is one of our, 
probably our greatest challenge, is to be able to provide 
medical monitoring services and now treatment to that highly 
dispersed population.
    So since the program began with both private as well as 
Federal moneys, we have developed a network of clinics which 
are coordinated through Mount Sinai in which responders that 
are in other States can avail themselves of medical monitoring 
services as well as now treatment services. So that is 
probably, as I want to emphasize one more time, that is a 
significantly challenging area of our program development. 
Because we are trying to put together a national set of 
clinics, the only kind of model for that in this country is the 
Veterans Administration, for instance. There is really no 
national clinics that we have to rely on. So we are putting 
that together as we have gone through the last few years.
    Mr. Bilbray. The task force, how frequently has it met 
since its inception in 2006?
    Dr. Agwunobi. The task force has a structure where most of 
its work is done not unlike here, in subcommittee. So we have a 
full task force that has met three times since October and will 
probably meet a couple of other times, maybe one more time 
before we are completely done. But most of the work has been 
actually farmed out to two subcommittees, one that focuses 
mostly on science and research with a view to the future, what 
are we going to need in the future in terms of research, in 
terms of clinical systems, clinical issues and Dr. Howard has 
very kindly chaired that subcommittee.
    The other subcommittee focuses on the issues of health 
financing, the different, what are the costs and what are the 
projections into the future and what are the different health 
financing models that we need to study in order to fully inform 
the Secretary. Between the different subcommittees, and there 
are small groups that break off of them and meet, there have 
actually been quite a few meetings in between each, in the 
order of tens of meetings between the main subcommittee 
meetings. So there has been a fair amount of meeting going on. 
A lot of our work, because we are all in the same department, 
is actually done in the hallways and in sidebars as we meet 
continuously across the course of our business day. We are all 
colleagues within the Department.
    Mr. Bilbray. As pointed out before, this is sort of a 
unique situation. In all fairness, from a disaster preparedness 
point of view, it is so different because unlike people that 
live out west and know they are moving into an earthquake area, 
know that is part of the decision they are making as 
individuals, or people that move down south into a hurricane 
area, you know there is an exposure there. This is one that was 
totally unforeseen and can't be foreseen. But more importantly, 
the people in New York don't have to worry about earthquakes, 
and people in Chicago don't worry about hurricanes.
    But everybody has to worry about, in the future, the same 
situation could occur in any city. In San Diego, we have three 
nuclear carriers, one of them with a big name across it called 
Ronald Reagan. It is a sitting target. So the big key there is 
what do we learn for future applications? What do we learn that 
can help us prevent the kinds of long-term problems that we are 
seeing here and the next response that we may have?
    And let's just stop a second and say, one thing we don't do 
enough of in this country is say, thank the Lord, thank the 
system, thank the Government for doing the right things we do. 
And one of the right things is, we haven't seen this happen 
again. I think we take it too much for granted that it hasn't 
happened. But what are we doing to prepare in case it happens 
again, if Chicago is hit, if San Francisco is hit? Where are we 
looking at this kind of thing?
    And I can just imagine the respiratory issue. Don't send 
anybody in unless they have the right equipment. Does that mean 
that we try to provide this equipment to every local responder? 
Is that going to be cost effective? Or are we talking about 
having a mobile capability to bring in this kind of equipment 
to be available wherever it happens? We are looking at that 
prevention in the future if another incident occurs.
    Dr. Agwunobi. One of the tasks of the science subcommittee 
of our task force is to see through research whether or not 
there are lessons that we can learn from those that are 
tragically affected today, lessons in terms of diagnosis, 
lessons in terms of treatment. The task force, however, is not 
performing an after-action, a review, an audit of the events 
that occurred on 9/11 and the days that transpired. Those 
after-actions were done or are being done, I would imagine, at 
the different levels of agencies, cities, State, and the 
Federal Government when they work on how they did and how can 
they do it better. Our focus has been on the victims that are 
suffering as a result of exposure today and how can we learn 
from their experience going forward in order to assure that the 
systems that we use to, in these circumstances in the future, 
are responsive to the needs of the victims.
    Mr. Bilbray. Mr. Chairman, I appreciate the time. I just 
want to say that one of the problems for those of us who will 
be at the local government level or the local community level, 
if we don't know the health risks, at least some projection of 
risk out there, how do we know a good example of downwind, do 
you shut down the schools like we would with an air response, 
don't let the kids out or do we move them out of the area. 
Those kinds of questions, we need to have the health data on to 
be able to make those local decisions in case it happens again.
    Dr. Agwunobi. Sir, that is exactly the sort of thing that 
the science subcommittee is learning and hopefully we are going 
to have research going forward that helps us answer many of 
these questions.
    Dr. Howard, did you want to add to that?
    Dr. Howard. I will just add that the World Trade Center 
health registry, which is operated by the New York City 
Department of Health and Mental Hygiene, is envisioned to be a 
20 year project that will gain a lot of data about population 
health.
    The issue that you mentioned is really huge. When you look 
at it from the perspective of the responders and what we are 
dealing with now in terms of their symptomatology, their lung 
function abnormalities, in the Department, what we are doing is 
looking at pre-deployment preparation, during deployment 
services that are necessary for responders and post-deployment, 
debriefing, medical evaluations, etc. So we are looking from 
all the lessons that we are deriving from the medical and 
scientific literature from this event and trying to design a 
program that will cover all three phases of responder 
deployment.
    Mr. Towns. Thank you.
    I recognize Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    I come at this from a slightly different perspective than 
some people sitting around this table. I wasn't a Member of 
Congress when this happened, I was a member of the public going 
through it with my community in Connecticut, like everyone else 
did. And so Doctor, when I hear you talk about the need for 
urgency here, and then I also hear that 5 years after the fact, 
we are convening the first task force that is going to start to 
look into a comprehensive health care strategy, there is a 
disconnect there for me, there is a disconnect for the folks in 
my district, there is a disconnect for the folks in Connecticut 
who went down and assisted in this effort.
    And so my question is very simple. What is your answer to 
people who say that 5 years after the fact, after putting in 
very small, relatively small amounts of money that simply don't 
comport with the estimates that have been given by Dr. Howard's 
organizations and others, as to the full cost of this, how do 
you provide an answer to people who have said that the only 
reason we are even here today is that you have come kicking and 
screaming to the table, being dragged there by members of the 
New York delegation and advocates? What is your answer to folks 
who just don't buy that there is a sense of urgency coming from 
the administration?
    Dr. Agwunobi. The administration's commitment is to make 
sure that where there are unmet needs, that those needs are 
met, and where there are lessons learned from science, that 
those lessons are applied. Many of the conditions, I will defer 
to my colleague to give you detail on this, but many of the 
World Trade Center related illnesses are an emerging phenomena, 
in that we are learning with the passage of time that No. 1, 
they are related, and that No. 2, that there are needs that are 
specific to that population, to those specific conditions, that 
need to be met.
    We recognize that over the long run, there are going to be 
needs that our work has to meet. But we are committed to trying 
to use data and science that has been gathered, that is 
gathering over time. The data will improve even going forward. 
Our commitment is to use that data to construct systems and 
responses that are sustained and that make a difference. 
Because they are founded in science, founded in what we have 
learned.
    Mr. Murphy. Here is the problem as I see it, or one of the 
problems. It sounds to me as if what you are saying is that you 
want to very methodically and carefully make sure that the 
diseases and the complications, the health complications are 
directly related to what happened on that site. But for the 
folks that rushed down there, they didn't wait to see the data 
or the science on what those chemicals were going to do to 
their body. They saw this as a national emergency. And the 
response back that we are hearing today is, well, we have to be 
very careful about how we go about the treatment to make sure 
that the science is right.
    Well, the folks that went down there didn't make sure the 
science was right and they are suffering for it. So shouldn't 
there be a sense that maybe we should err on the side of 
inclusiveness instead of erring on the side of making sure the 
science is exactly right?
    Dr. Agwunobi. Sir, indeed, the Federal Government, the city 
especially and philanthropy, in a very real way, provided care 
from the very beginning. What we are talking about here today 
is what do we design for the future? What do we design to 
assure that the needs of the individuals that are being met 
today are met 60, 50, 40 years from now? It is true that in 
response to 9/11, these heroes, and that is what they were, 
responded without second thought, emergently, to the event. It 
is also true that the health community responded right on their 
heels, whether it was Federal programs, State programs, 
philanthropic programs. The world rallied, the health world 
rallied to the site. That is why Mount Sinai, that is why FDNY, 
that is why other programs have been there working pretty much 
from the beginning.
    Now, what our job is going forward is to make sure that 
Government, all of us, that we make sure that these programs, 
that programs are there for people to meet their needs in the 
future.
    Mr. Murphy. I yield back the balance of my time, Mr. 
Chairman. I guess my point is that I think it is hard to make 
the case when we are seeing estimates that this is going to 
have an annual cost of anywhere from $250 million to $390 
million, that a President's budget that includes $25 million is 
evidence of our national Federal health care community rallying 
to the cause. I hope that is a placeholder, because we know and 
you know, Dr. Howard certainly does, because he has looked at 
these numbers, know that it is going to take a lot more to 
convince a lot of us in Congress that we are indeed putting our 
money where our mouth is on this issue.
    So I yield back the balance of my time, Mr. Chairman.
    Mr. Towns. You don't have anything to yield. [Laughter.]
    Congressman Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Dr. Agwunobi, you mentioned the figure 340,000 at one 
point. Was that the number eligible? Or maybe I misunderstood 
that.
    Dr. Agwunobi. Yes.
    Mr. Duncan. That is what I thought you said. The staff said 
that was the number eligible, but you have 340,000 actually 
enrolled.
    Dr. Agwunobi. Following the attack, the Federal Government 
provided the State of New York, through its Medicaid program, 
pretty quickly, within weeks, a $330 million waiver to help 
support the care of individuals in the months and years that 
followed. Over 340,000 individuals enrolled in that program and 
received care as a result of that program.
    Mr. Duncan. Well, let me ask you this. I have seen in 
Tennessee and throughout the country, we have this sick workers 
program for the Department of Energy. We have found that many, 
many people, because there is a big pot of money there, they 
are coming in and claiming money, even family members, of 
people who weren't exposed. So we are finding that we have to 
be somewhat skeptical of some of these claims to be fair to the 
taxpayer.
    Now, I know every Government agency wants to expand its 
mission and expand the number of people that it is taking care 
of or helping out. But is somebody being at least a little bit 
skeptical about whether all these things are related to 9/11? 
In other words, what I am getting at is this: I sure don't want 
to sound mean, but if 9/11 had never happened, all of these 
people would have gotten sick, would have gotten various types 
of diseases, would have gotten cancer or other forms of 
disease. Everybody would, all of them would have died at some 
point, hopefully after a long life.
    But are we at the point now where anything that ever goes 
wrong with these people is going to be in some way tied in to 
9/11? I mean, if somebody comes in with measles, where we do 
draw the line here? Is this a program that you are talking 
about it lasting 50 or 60 years, you are talking about it 
already ballooning to, one of our colleagues just said $390 
million. Is it going to be a multi-billion dollar program in 
the very near future?
    Dr. Agwunobi. Sir, the task force, our work, analyzing 
information and bringing together data in order to inform the 
Secretary and the administration, we haven't approached this 
with skepticism. We have approached this with a deep-seated 
respect for science and for data. One of the reasons we are 
being deliberative about this is that we believe you should 
start with a foundation of solid data, where you have that 
available to you, and with science. As to the rest of your 
question, related to the kinds of diseases, we are very proud 
of the work that NIOSH has done, we are very proud of the work 
that clinicians and others across the community have done in 
gathering data.
    Dr. Howard, did you want to talk a little bit to the kinds 
of conditions, the kinds of patterns that you are seeing?
    Mr. Duncan. You are going to have to do it very quickly, 
because we have votes unfortunately that are starting. I 
apologize.
    Dr. Howard. I will just mention, Mr. Duncan, that also 
being in the same institute that handles the Energy Employees 
Occupational Compensation Program, it is extremely important 
that we have the best, the most fulsome, the most robust 
science. Right now what we are seeing are associations between 
exposure and certain populations.
    I would have to look chiefly, and I would be happy to give 
you information, and the fire department medical officers are 
here today. If we look at that cohort of individuals, all of 
which are being examined, all of which were exposed, we look at 
the literature that has come out of that particular experience. 
We see people not only with symptomatology, primarily 
respiratory, but we see lung function abnormalities, objective 
tests. And that is our best indicator, these are the people 
that were maximally exposed.
    Then we go from there to other cohorts, then to other 
affected populations. As we go through that sort of transition, 
there are variable levels of association that we are seeing.
    Mr. Duncan. Well, all I am saying is, we need to take care 
of things that are directly attributable to the events of 9/11. 
But we can't just take care of anything that happens to anybody 
just because there happens to be a pot of money there and they 
happen to be in this pool. I had a group of these sick workers 
from Oak Ridge who came to see me one time. One woman broke 
down and cried and said that the work at Oak Ridge killed her 
father. And I started asking here what his story was, and he 
had retired at the age of 62 and had died 27 years later. I can 
tell you, almost every man around would say 89 good healthy 
years of living is a pretty good deal.
    But at any rate, I think some people just need to look at 
this very closely before it just balloons totally out of 
control. Thank you very much.
    Mr. Towns. Congressman Welch.
    Mr. Welch. I yield my time to my colleague from New York.
    Mr. Nadler. I thank you very much.
    Let me say that I am very cognizant of the very important 
need to increase the funding and make it a reliable stream to 
the centers of excellence in New York, to Mount Sinai, to 
Bellevue, which by the way, Bellevue has not received any 
Federal funding as far as I know, and to expand other programs 
that would treat a huge percentage of the 9/11 health cases. 
But I have a couple questions.
    No. 1, how do we deal with the fact going forward 15, 20, 
30 years from now that the current Federal funding approach is 
subject to the whims of an annual appropriation process? 
Shouldn't we be looking at setting up some sort of an ongoing, 
automatic system, so that people who because of 9/11 are still 
struggling with emphysema or cancer or whatever, 30 years from 
now don't have to worry about an annual appropriation process?
    Dr. Agwunobi. Sir, I am poorly qualified to comment on the 
annual appropriations process. It is one that I work for and 
live under and respect greatly. I do believe, however, that it 
is important that we give this planning, this process, a long-
term horizon, that we focus not just on today's needs or on 
today's population, but on the needs of that population in the 
future.
    Mr. Nadler. Thank you. Second, your task force is focusing 
very strongly and properly so, as far as it goes, on the first 
responders, the people who worked on the pile and many of whom, 
70 percent of whom, according to the Mount Sinai report, are 
getting sick. But my concern is and has been for a long time, 
what about residents in the area? What about workers who come 
in to work in that area, not only that day, but subsequent? We 
know some people who have gotten sick because they work for the 
SEC, the Securities and Exchange Commission, in a building 
nearby. And they have lung-related problems now, because they 
worked in a building that was not a Federal Government 
building, not properly cleaned up after the disaster.
    So what is your task force doing about looking at the 
question of residents, workers, students, living in New York on 
the day of the disaster, or in Connecticut or New Jersey, and 
after the disaster? In particular, we know that the Inspector 
General of EPA said that they never did a proper cleanup, that 
thousands of buildings may still be contaminated, and that 
people may be being poisoned on an ongoing basis. Are you 
looking at that question, at implementing perhaps the EPA 
Inspector General's recommendations for how to deal with that 
question, and if not, why not?
    Dr. Agwunobi. Sir, the task force's charge is very clear. 
We look at issues that relate to responders.
    Mr. Nadler. So in other words, there is nobody in the 
executive branch now that you know of of the Federal Government 
looking beyond the responders?
    Dr. Agwunobi. I have no doubt, however, that information on 
residents will be a part of the dialog on the data and science 
at the Department of Health and Human Services.
    Mr. Nadler. Well, in terms of being a part of that dialog, 
you do realize that the EPA abolished the Office of Ombudsman 
of the EPA, because they told them what they should be doing. 
They have disregarded the EPA's Inspector General, who 3 years 
ago told them what they should be doing. They have disbanded 
scientific advisory panels, who also told them what they should 
be doing. And they have ignored every single recommendation and 
conducted so-called cleanups that the EPA Inspector General 
characterized as phony cleanups. And that as far as we know, 
the Federal Government is doing nothing to protect the health 
of people who live and work in the New York area from the 
ongoing contamination that every scientific body that has 
looked at it at the request of the Federal Government said is 
ongoing and is not being dealt with.
    Dr. Agwunobi. Sir, I represent the Department of Health and 
Human Services.
    Mr. Nadler. Let me then apologize for unloading on HHS what 
is really a question for EPA and for the President and for the 
Federal Government. I do that because we have been stonewalled 
for 5 years so far when we try to raise this question anywhere 
else. It is, as far as I am concerned, two cover-ups were 
conducted. One cover-up was of the health effects of the first 
responders. That cover-up started unraveling a year ago with 
the Mount Sinai report and then with some very good work done 
by, in particular, the Daily News of New York. And now at least 
we are talking about it, the task force is appointed, etc.
    But the other cover-up is still going on. And that cover-up 
is of the fact that large areas, well, we don't know if there 
are large areas, but potentially large areas of New York City, 
New Jersey, etc., were contaminated, were never properly 
cleaned up and are poisoning people to this day, so that we may 
see thousands of cancer, asbestosis, lung cancer, whatever, 15 
years from now. We have to uncover that cover-up and get it out 
to the public and have the Federal Government deal with that, 
as well as the fact that the Federal Government is first 
beginning to deal with the first responder problem.
    Thank you.
    Mr. Towns. Let me thank the gentleman. At this time, we 
will hear from Mr. Fossella. We have votes on the Floor, and 
immediately after Mr. Fossella, we will adjourn until 1:30.
    Mr. Fossella. Thank you, Mr. Chairman. I think part of this 
hearing process is education, judging by some of the questions 
and speculation. Clearly, as someone who always wants to insure 
that taxpayer money is spent wisely, I think we have an 
education process. I would like to submit for the record Mayor 
Bloomberg's report. On page 3, it lists the eligibility 
criteria that was established by Mount Sinai for those who can 
participate in the program.
    Mr. Towns. Without objection.
    [Note.--The referenced information entitled, ``Addressing 
the Health Impacts of 9-11, Report and Recommendations to Mayor 
Michael R. Bloomberg,'' may be found in subcommittee files.]
    Mr. Fossella. Thank you, Mr. Chairman. Because it is clear 
that still many Americans don't fully appreciate the tens of 
thousands, if not hundreds of thousands of people who were left 
exposed and are suffering as a result of 9/11. And they will 
continue to do so for years to come. I think it is essential 
that we get and build that support.
    Dr. Agwunobi, has HHS completed its internal cost estimate, 
or at least has a project of what it would cost in this coming 
fiscal year and beyond?
    Dr. Agwunobi. Sir, we have. Our process involves, as I 
said, reviewing all the data, doing an analysis of that, 
informing the Secretary. He will then take the next step, which 
is to engage in dialog. Let me just say that we don't stop at 
costs, we look at what are the ways to assure quality care for 
these people. Then you move to what is the best way to assure 
access to that quality care, the structure of the system, how 
it lays out across the Nation, what are the best ways to assure 
access to that quality care. Only then do we say, OK, of the 
different ways this might be done, what are the different 
costs.
    Mr. Fossella. OK. I am going to try to ask you, and I 
appreciate, given the time, if you could shorten those answers, 
if you can. The data example compiled by the fire department 
and Mount Sinai, is that not sufficient data to date to at 
least say something publicly or declare publicly what it is 
going to cost, at least in the short-term or the next couple of 
years, do you think so?
    Dr. Agwunobi. Sir, that is one data point.
    Mr. Fossella. What other data points exist?
    Dr. Agwunobi. We look at every source of data you have 
talked about, Mount Sinai, data from other systems, in the 
past, we are looking at every source of data.
    Mr. Fossella. So you don't think, for example, the fire 
department, where I think 96 percent of the responders who 
participated in that program is a pretty good or significant 
data point?
    Dr. Agwunobi. I think we are absolutely in our system going 
to have data from the authority events, port authorities and 
subsequently. However, to fully inform the Secretary, we need 
to look at all the data we can get our hands on.
    Mr. Fossella. You say in terms of developing cost 
estimates, do you anticipate supporting the current programs, 
for example, Mount Sinai, Fire Department and Bellevue centers 
of excellence already in place, or do you anticipate using 
different sources to fund the health needs?
    Dr. Agwunobi. I'm sorry, sir?
    Mr. Fossella. Are there programs, other than the existing 
ones that are currently treating the vast, vast majority of 9/
11 responders, are you considering creating or funding those 
programs to treat 9/11 World Trade Center victims?
    Dr. Agwunobi. We are going to look at all of them, from all 
the data that we have, including the mayor's report. But I 
can't say what that net result in terms of the decision will 
be.
    Mr. Fossella. Is it safe to say that anyone receiving 
treatment in any of these centers of excellence for this coming 
what is called fiscal year will continue to receive treatment 
and will not be let go as a result of diminished Federal 
funding?
    Dr. Agwunobi. Our focus is on the people who are in need.
    Mr. Fossella. But can you say that anybody receiving 
treatment this year will receive that treatment, they will not 
be denied as a result of lack of Federal funding?
    Dr. Agwunobi. I think we have recommended to assure that 
everyone that has a need that is not met that they are taken 
care of.
    Mr. Fossella. At least for this fiscal year, as you begin 
to develop the long-term, and I don't think anyone is denying 
that there is a long-term commitment, for those triage people 
who need work on a day to day basis, the names of, for example, 
the people who can't breathe, for the sake of argument, we are 
not saying, the Federal Government is not telling them they are 
going to be denied?
    Dr. Agwunobi. I misunderstood your question. Funding for 
the current program will get us through the end of this fiscal 
year.
    Mr. Fossella. Second, do you think that there is an effort 
or a noble or national effort that we can say that these 
centers of excellence, we can look to for research or for 
registry purposes that will help to serve a national population 
that is already moving, whether it be to California or Florida 
or Connecticut, that health care professionals in those areas 
can turn to these centers of excellence to help treat those 
individuals that ultimately, if not now, will need care?
    Dr. Agwunobi. Sir, I would say that lessons learned, 
information we acquire, that we would share freely and openly 
with every one of these centers.
    Mr. Fossella. Thank you, Mr. Chairman.
    Mr. Towns. We will recess until 1:30. We will discharge 
this panel, and panel No. 2 will be at 1:30.
    [Recess.]
    Mr. Towns. Let me apologize for being late. There were a 
lot of votes on the floor and it lasted much longer than we 
ever anticipated. So may I now ask all of you to stand and be 
sworn.
    [Witnesses sworn.]
    Mr. Towns. I would like to welcome our second panel. I will 
briefly introduce each witness. Linda Gibbs is the deputy mayor 
of New York City for health and human services. We are 
delighted to have you. Ed Skyler is the deputy mayor of New 
York City for administration. We are delighted to have you as 
well. Together they chair the City's World Trade Center health 
panel and will be presenting the recommendations of the panel 
which Mayor Bloomberg has endorsed.
    They are accompanied by three physicians who have been 
treating New York City responders and residents: Dr. Joan 
Reibman, director of the World Trade Center Environmental 
Health Center at Bellevue Hospital. Welcome. Dr. David Prezant 
represents the fire department; Dr. Eli Kleinman represents the 
police department of New York.
    Dr. Robin Herbert is another experienced physician who 
leads a program to monitor and treat 9/11 illnesses. Dr. 
Herbert is with Mount Sinai Hospital, serves as director of the 
World Trade Center Medical Monitoring Program Data and 
Coordination Center.
    We have also with us John Sferazo, who was one of the 
workers at Ground Zero on the morning of September 12th, before 
sunrise. He worked on search and rescue and burned iron on the 
pile in search of survivors of the disaster. For more than 30 
days he worked at Ground Zero. Mr. Sferazo has diminished 
breath and lung capacity from the exposure to 9/11 pollutants. 
He has been unable to work since August 2004 because of his 
health impairments.
    We also have with us paramedic Marvin Bethea, who was 
buried in debris when the first World Trade Center Tower fell, 
but he got out. As the second building started to collapse, he 
helped an older woman across the street into a hotel and was 
covered in debris again. He returned to provide more aid on 
September 14th. Five weeks later, he suffered a stroke 
attributed to 9/11 stress. Later he was diagnosed with adult 
onset asthma, post-traumatic stress disorder and chronic 
bronchitis.
    We are honored to have such a distinguished panel here with 
us today. As with the first panel, of course, let me just say 
that we will go right down the line. We will start with you, 
Deputy Mayor Gibbs.

  STATEMENTS OF LINDA I. GIBBS, CO-CHAIR OF MAYOR BLOOMBERG'S 
WORLD TRADE CENTER HEALTH PANEL AND NEW YORK CITY DEPUTY MAYOR 
FOR HEALTH AND HUMAN SERVICES; EDWARD SKYLER, CO-CHAIR OF MAYOR 
 BLOOMBERG'S WORLD TRADE CENTER HEALTH PANEL AND NEW YORK CITY 
 DEPUTY MAYOR FOR ADMINISTRATION, ACCOMPANIED BY JOAN REIBMAN, 
    M.D., ASSOCIATE PROFESSOR OF MEDICINE AND ENVIRONMENTAL 
  MEDICINE, DIRECTOR NYU/BELLEVUE ASTHMA CENTER, DIRECTOR OF 
BELLEVUE WTC ENVIRONMENTAL HEALTH CENTER; DAVID PREZANT, M.D., 
CHIEF MEDICAL OFFICER, OFFICE OF MEDICAL AFFAIRS, CO-DIRECTOR, 
 WTC MEDICAL MONITORING AND TREATMENT PROGRAMS, NEW YORK CITY 
   FIRE DEPARTMENT; ELI J. KLEINMAN, M.D., SUPERVISING CHIEF 
   SURGEON, NEW YORK POLICE DEPARTMENT; ROBIN HERBERT, J.D., 
 DIRECTOR, WORLD TRADE CENTER MEDICAL MONITORING PROGRAM DATA 
  AND COORDINATION CENTER, ASSOCIATE PROFESSOR, DEPARTMENT OF 
   COMMUNITY AND PREVENTIVE MEDICINE, MOUNT SINAI SCHOOL OF 
  MEDICINE; JONATHAN SFERAZO, DISABLED UNION IRON WORKER; AND 
                    MARVIN BETHEA, PARAMEDIC

                  STATEMENT OF LINDA I. GIBBS

    Ms. Gibbs. Thank you, Chairman Towns, Ranking Member 
Bilbray, Congress Members from New York and additional members 
of the subcommittee, thank you so much for convening this 
hearing today and inviting me and Deputy Mayor Skyler to 
testify.
    We are accompanied here today by Dr. Joan Reibman of 
Bellevue, Dr. David Prezant of the fire department and Dr. Eli 
Kleinman of the police department. We would ask that you submit 
their testimony to the record.
    Mr. Towns. Without objection, so ordered.
    Ms. Gibbs. Thank you.
    I am here today as the co-chair, with Deputy Mayor Skyler, 
of a panel that Mayor Bloomberg convened in September 2006, the 
fifth anniversary of 9/11, to examine the health effects of the 
9/11 attacks and attack the sufficiency of resources devoted to 
World Trade Center-related health needs. The result of the 
panel's efforts was the most exhaustive examination of the 
health impacts of 9/11 to date and it was laid out in an 83-
page report, co-authored by panel directors Rima Cohen and Cas 
Holloway, who are also with us here today.
    In this process, the panel started with the evidence. Let 
me summarize some of that for you. Over the past 5 years, 
medical researchers and clinicians have reported in peer review 
studies and from their own treatment experiences that thousands 
of people endured physical and mental health conditions that 
were caused or exacerbated by the 9/11 exposure. While many 
have recovered, others continue to suffer from a range of 
ailments. The most common are respiratory illnesses, such as 
asthma, and mental health conditions, such as post-traumatic 
stress disorder, anxiety and depression. We do not yet know the 
extent to which these conditions will remain or can 
successfully be resolved with treatment.
    We also know that the health issues associated with 9/11 
affect not only New Yorkers but tens of thousands of volunteers 
and workers from across the Nation, including every State 
represented on this subcommittee, who responded to the call to 
help and participated in the unprecedented rescue, recovery and 
cleanup effort that followed the terrorist attacks. These 
rescue and recovery workers are those most likely to experience 
ill health related to the exposure. For example, more than 
2,000 of the fire department's 14,000 first responders, 15 
percent, that is, have sought treatment for respiratory 
conditions since September 11th. More than twice that number 
have sought services for mental health care. Among a sample of 
9,400 rescue and recovery workers examined at the World Trade 
Center Health Program, coordinated by the Mount Sinai Medical 
Center, 32 percent self-reported lower respiratory system and 
50 percent reported upper respiratory systems near the time of 
their initial medical evaluation.
    Area residents, school children, commercial workers and 
others also reported a variety of illnesses in the aftermath of 
9/11, including acute breathing problems, worsening of asthma, 
nausea, headaches and stress-related illness and anxiety. Data 
from the New York City Department of Health World Trade Center 
Registry, the largest public health surveillance effort of this 
kind, has been documenting the physical and mental health 
conditions reported by over 70,000 participants. Its data 
showed that two-thirds of adult enrollees reported new or 
worsened sinus or nasal problems after the exposure to 9/11, 
two-thirds.
    Fortunately, help is available for many of those in need. 
Among the dozens of health and mental health programs that 
developed over the years since the attack, three have emerged 
as centers of excellence in diagnosing and treating World Trade 
Center-related health conditions. You have heard a lot about 
them here already today. The first at the New York City Fire 
Department, serving firefighters and EMS workers; the free 
monitoring and treatment program coordinated by Mount Sinai 
Medical Center is the second, which meets the needs of all 
other first responders, workers and volunteers; and third, the 
World Trade Center Environmental Health Center at Bellevue, 
which has served all the area residents, commercial workers and 
other non-first responders.
    These programs have provided a virtual lifeline to 
thousands of individuals from across the Nation. Equally 
important, the data generated by these programs and research 
efforts by the Registry and the New York City Police Department 
have led to important scientific studies, and have also 
informed the development of clinical guidelines for diagnosing 
and treating 9/11-related health problems. That is the good 
news.
    But the panel also found that these efforts and the 
critical research they generate are in serious jeopardy. Each 
of these programs faces a bleak future unless we secure ongoing 
Federal funding. Even with President Bush's recent pledge of 
$25 million, the fire department and Mount Sinai clinical 
programs are expected to run out of funds before the end of 
this fiscal year. The Federal Government has provided no 
support to the Bellevue program, the only program available to 
the thousands of residents, school children, Chinatown 
businesses and commercial workers who may have 9/11-related 
conditions.
    That is why the Mayor's panel recommended that New York 
City vigorously pursue Federal funding to support the programs 
that form the cornerstone of our response to 9/11 health 
impacts. As Mayor Bloomberg said when he accepted our report, 
``Individuals who are now suffering from 9/11 health effects 
were responding to an act of war against this Nation.'' 
Congressman Bilbray spoke eloquently about this this morning, 
that the Government is responsible for assisting them, and New 
York City cannot bear the responsibility on its own, especially 
for those who aided New York in its time of need, but now live 
in other States.
    We are asking the Federal Government to step up to the 
plate, stand shoulder to shoulder with us to support these 
brave men and women. Let me turn this over now to Deputy Mayor 
Ed Skyler.
    [The prepared statement of Ms. Gibbs follows:]
    [GRAPHIC] [TIFF OMITTED] 34912.023
    
    [GRAPHIC] [TIFF OMITTED] 34912.024
    
    [GRAPHIC] [TIFF OMITTED] 34912.025
    
    [GRAPHIC] [TIFF OMITTED] 34912.026
    
    [GRAPHIC] [TIFF OMITTED] 34912.027
    
    [GRAPHIC] [TIFF OMITTED] 34912.028
    
                   STATEMENT OF EDWARD SKYLER

    Mr. Skyler. Thank you. Good afternoon. My name is Edward 
Skyler. I am the New York City deputy mayor for administration 
and I co-chair the Mayor's World Trade Center Health Panel with 
Deputy Mayor Gibbs.
    I want to first echo Mayor Gibbs' thanks to you, Chairman 
Towns, Ranking Member Bilbray, members of the subcommittee, 
such as Congresswoman Maloney, Congressman Murphy, as well as 
members of the New York delegation who are here, Congressman 
Nadler, Congressman Fossella, especially members of the New 
York delegation and their staffs, who have long made this issue 
a top priority.
    I also want to note that we have copies of the Mayor's 
report here for you and your staff.
    Deputy Mayor Gibbs walked you through some of the panel's 
medical data, existing treatment and research options and the 
core recommendations. I want to cover two related topics: what 
we need from the Federal Government at a minimum to provide the 
direct treatment, research and information that people 
suffering from 9/11-related health effects need; and the urgent 
need for Congress to reopen the Victim Compensation Fund.
    The Federal Government contributed substantially to New 
York's economic and physical recovery from the 9/11 attacks. 
Mayor Bloomberg and the people of New York City are grateful 
for the Federal Government's strong support. But Federal 
support has been slow in coming to address the health care 
needs of those who responded on and after 9/11, and of the 
residents and other people of New York City, who have remained 
since the attacks and have done so much to contribute to the 
city's resurgence. And the aid that has come is far less than 
is needed.
    Based on informed but necessarily contingent assumptions, 
the estimated gross annual costs to provide health care to 
anyone who could seek treatment for potentially 9/11-related 
illness, whether through the fire department, Mount Sinai, 
Bellevue programs or from a personal physician or any other 
source, is $393 million a year. That $393 million covers the 
cost to treat anyone anywhere in the country for a potentially 
9/11-related illness, including the thousands of responders and 
others who answered New York City's call from 50 States. We 
estimate that 45,000 people from outside New York City and New 
Jersey were exposed on 9/11.
    If you assume that number is a reliable estimate of gross 
costs in each of the 5-years since 9/11, then the total cost of 
9/11 health impacts has already surpassed $2 billion. We 
estimated that the minimum amount of Federal support needed, 
just to sustain and expand existing treatment and research 
programs, and to implement the rest of the panel's 
recommendations is $150 million next year, increasing to $160 
million by fiscal year 2001. Put another way, that $150 million 
is the amount needed to fill the gaps in available information 
and treatment for 9/11-related health needs.
    What will that money pay for? Sustaining the fire 
department's monitoring and treatment program at current 
levels; sustaining the Mount Sinai program, which is monitoring 
and treating thousands of NYPD responders and other workers and 
volunteers who participated in recovery operations at the World 
Trade Center site; sustaining and expanding the Bellevue 
program to evaluate and treat up to 12,000 patients over the 
next 5 years, the only program that treats residents in lower 
Manhattan; sustaining and expanding mental health services made 
available through the city's health department; expanding the 
treatment and research capacity of the police department and 
implementing the remainder of the panel's recommendations.
    The health impacts of 9/11 are substantial and will be with 
us for years to come. Without the help of Congress and the 
administration, there is a real risk that health care needs of 
those who responded on 9/11 or who stayed with the city to help 
us and the Nation rebuilt will go unmet. We should work 
immediately and urgently to prevent this entirely preventable 
outcome.
    Second, I want to briefly talk about the panel's 
recommendation to reopen the Victim Compensation Fund. When 
Congress created the Victim Compensation Fund in 2001, it chose 
a no-fault compensation program. Those injured were compensated 
without any need to establish negligence or fault. Those who 
did not meet the eligibility criteria or did not sign up in 
time had no choice but to go the traditional litigation route. 
Congress worked with the city to create the World Trade Center 
captive insurance company, to insure the city and its 
approximately 150 contractors whose construction and other 
workers played a critical role in the World Trade Center 
cleanup for claims arising from those operations. The insurance 
company was funded with $1 billion of the $20 billion that 
Congress and President Bush made available to the city after 
the 9/11 attacks.
    But this insurance mechanism is not suited for what we are 
faced with today. More than 6,000 city employees and other 
workers have already sued the city and its contractors, 
alleging harm in connection with the operations at Ground Zero. 
Taken together, those lawsuits allege damages that the city 
conservatively estimates to be in the billions of dollars. And 
we don't know who or how many people may allege they are harmed 
because of 9/11 in the future.
    I should note that Congress capped the city's liability at 
$350 million, but the potential liability of contractors who 
participated is not capped by statute.
    The insurance company cannot just hand out the $1 billion 
Congress provided for insurance coverage. As with any fault-
based insurance mechanism, plaintiffs must not only show they 
were harmed, but must also prove fault. The city and its 
contractors have strong defenses for what was clearly a 
necessary response to a national attack.
    New Yorkers have always been proud of the way the city came 
together after 9/11. But this drawn-out and divisive litigation 
is undermining that unity. The fundamental point is, 
compensating people who were hurt on 9/11 should not be based 
on a legal finding of who is to blame. We all know who is to 
blame: 19 savages with box cutters. We are here today because 
New York City would rather stand with all those who filed suit 
than against them in a court room. At its core, reopening the 
Victim Compensation Fund is about fairness. There is no reason 
why people harmed as a result of 9/11 should now have to go to 
court and prove liability. Proof of harm should be enough to 
receive fair and fast compensation.
    Simultaneously with the reopening of the fund, it is 
essential that Congress eliminate any liability of the city and 
its contractors arising from the recovery and cleanup. Congress 
could then move the $1 billion now available to captive 
insurance to the newly reconstituted Victim Compensation Fund. 
Only by taking these steps can we ensure that those who were 
harmed by 9/11 get compensation quickly. Only by taking these 
steps can we ensure that in the event of another terrorist 
attack, whether in New York, San Diego, Boston, Chicago, 
anywhere on American soil, the private sector will come to the 
country's aid as swiftly and with the same selflessness, energy 
and determination that was brought to bear on September 11, 
2001. Reopening the funds and eliminating liability to the 
contractors is not just about providing health care and 
compensation, it is necessary to our country's safety in the 
future.
    Thank you for the opportunity to testify before you today.
    [The prepared statements of Mr. Skyler, Dr. Reibman, Dr. 
Prezant, and Dr. Kleinman follow:]
[GRAPHIC] [TIFF OMITTED] 34912.029

[GRAPHIC] [TIFF OMITTED] 34912.030

[GRAPHIC] [TIFF OMITTED] 34912.031

[GRAPHIC] [TIFF OMITTED] 34912.032

[GRAPHIC] [TIFF OMITTED] 34912.033

[GRAPHIC] [TIFF OMITTED] 34912.034

[GRAPHIC] [TIFF OMITTED] 34912.035

[GRAPHIC] [TIFF OMITTED] 34912.036

[GRAPHIC] [TIFF OMITTED] 34912.037

[GRAPHIC] [TIFF OMITTED] 34912.038

[GRAPHIC] [TIFF OMITTED] 34912.039

[GRAPHIC] [TIFF OMITTED] 34912.040

[GRAPHIC] [TIFF OMITTED] 34912.041

[GRAPHIC] [TIFF OMITTED] 34912.042

[GRAPHIC] [TIFF OMITTED] 34912.043

[GRAPHIC] [TIFF OMITTED] 34912.044

[GRAPHIC] [TIFF OMITTED] 34912.045

[GRAPHIC] [TIFF OMITTED] 34912.046

[GRAPHIC] [TIFF OMITTED] 34912.047

[GRAPHIC] [TIFF OMITTED] 34912.048

[GRAPHIC] [TIFF OMITTED] 34912.049

[GRAPHIC] [TIFF OMITTED] 34912.050

    Mr. Towns. Thank you very much, Deputy Mayor Skyler and 
also Deputy Mayor Gibbs, for your testimony.
    Now we will move to Dr. Herbert.

                   STATEMENT OF ROBIN HERBERT

    Dr. Herbert. Thank you. Honorable Chairman Towns, Ranking 
Member Bilbray, Mrs. Maloney and other members of the 
subcommittee, as well as the members of the New York delegation 
who are here, Mr. Nadler and Mr. Fossella, thank you so much 
for inviting me today. My name is Dr. Robin Herbert. I am an 
associate professor in the Department of Community and 
Preventive Medicine of the Mount Sinai School of Medicine and 
currently serve as the Director of the World Trade Center 
Medical Monitoring Program Consortium Data and Coordination 
Center.
    In light of our growing understanding of the health 
consequences that have resulted from an unprecedented attack on 
the Nation, it is an apt time to take stock of how well we as a 
Nation care for World Trade Center responders and the many 
others who have fallen ill or may become ill in the future. The 
environment in lower Manhattan following the collapse of the 
Twin Towers was unlike anything previously witnessed. But 
caring for affected populations of critical need is not 
unprecedented nor unearned by those involved with this 
particular tragedy.
    It is estimated that well over 50,000 people worked or 
volunteered in the aftermath of the attacks in and around the 
World Trade Center area and the Staten Island landfill. This 
group included both traditional first responders, such as 
firefighters, police officers, paramedics, but it also included 
a large and very diverse population of other responders, heavy 
machine operators, laborers, iron workers, many others from the 
building inspection trade, telecommunication workers, transit 
workers, sanitation workers and a wide range of volunteers.
    Our Nation has celebrated these responders as heroes. 
Unfortunately, in the course of their selfless work, they have 
been exposed to a complex mix of toxic chemicals and to 
physical hazards and extreme psychological trauma. Because of 
this many suffer from persistent respiratory and mental health 
consequences, as well as a chronic sequelae of injuries.
    I think many of us here at the table agree that the 
physical and mental health consequences of the disaster have 
been very well documented. We, from Mount Sinai, were proud to 
release in September 2006 a report that detailed findings from 
our federally funded program. We examined 9,442 World Trade 
Center responders between July 2002 and 2004. Among the key 
findings, fully 69 percent of the responders reported having 
new or worsened respiratory symptoms at the time of their 
response work. Fifty-nine percent still had those symptoms as 
long as 2\1/2\ years after September 11, 2001.
    In particular, one of the most worrisome findings, I think, 
was an increased rate of breathing test abnormalities when 
compared with the general U.S. population. In our non-smoking 
patients, we found five times the expected rates of a breathing 
test abnormality called low forced vital capacity. This is a 
finding that can be caused by a number of different conditions. 
It can be caused by asthma with something called air trapping, 
it can be caused, frankly, by being overweight. But it also can 
be caused by interstitial lung disease of the type that 
unfortunately we know that some responders have already 
developed and unfortunately a few have died from.
    When this kind of abnormality is found, this is a screening 
test. What you need to do is then go and followup to figure 
out, what is the cause of that abnormality. And that is the 
reason that I believe, and I believe that my colleagues, 
certainly the physicians with whom I have worked, Dr. Reibman 
and Dr. Prezant, feel very strongly that centers of excellence 
are the way to go to take care of responders. We see a 
responder with a low force vital capacity, we need to get that 
responder rapidly into treatment with diagnostic tests and with 
somebody who is an expert in World Trade Center-related 
diagnosis and treatment to find out what the cause of the 
problem is. I would certainly say the same would be for 
residents, not just responders.
    We have also found that in our treatment program, there are 
very similar types of patterns of disease as has been seen and 
reported in other groups. In our treatment program at Mount 
Sinai, where we have seen over 3,600 responders, 86 percent 
have upper respiratory problems that are not going away, such 
as sinusitis. Half have lower respiratory problems, such as 
asthma. About a third have problems like gastrointestinal 
conditions. Almost a third have persistent musculoskeletal 
problems from injuries and almost 40 percent have persistent 
mental problems. So this is, again, this is 3,600 people 
receiving medical care to date for these problems.
    We have also found in our treatment program that 44 percent 
have no health insurance. If we didn't have our federally 
funded treatment program now, and if we hadn't previously had 
philanthropically funded programs, these folks would have 
nowhere else to go.
    In addition to the 44 percent uninsured, about 20 percent 
are under-insured. So access to medical care for responders has 
been a huge difficulty.
    Basically at this point, given what we know about the 
health consequences of the disaster, we believe that regular 
monitoring and screening examinations and treatment will be 
necessary for responders for their lifetimes. We would advocate 
a program in which we are able to develop, actually what we 
have done is develop an approach to medical care of responders 
where we link screening examinations to treatment and to 
disease surveillance. Because the idea is that you want to do 
the screening exams to identify health problems early and get 
people into treatment. But you also want to be able to use the 
information from those examinations to identify emerging 
disease patterns. Because we know that responders have been 
exposed to a range of toxins, including cancer-causing agents 
such as asbestos, PCBs, dioxins, and we frankly do not know 
what the long-term health consequences will be for the 
responders.
    Because of that, again, we advocate the centers of 
excellence model. Right now what we do is we offer standardized 
comprehensive examinations to identify both possible World 
Trade Center-related physical and mental health consequences. 
We then gather the information on the health impacts and get 
people into treatment.
    We feel that dissemination of information derived from the 
disease monitoring and screening and treatment is really 
important to improve treatment for World Trade Center 
responders. And we are so grateful that we have received 
Federal funding to date to do these activities.
    In 2002, Mount Sinai received funding for the World Trade 
Center worker and volunteer medical screening program in 
response to growing concerns about health effects among 
responders. And our program based at Mount Sinai coordinates a 
consortium throughout New York, New Jersey, Long Island and 
nationally. That program has been continued as a medical 
monitoring program. We have seen over 20,000 responders to 
date, more than 7,000 have had followup examinations. We have 
seen people from all over the United States. We have been 
working with a variety of programs to provide national exams, 
and have examined more than 800 responders nationally. It is 
very challenging, and I really appreciated your comments 
earlier today about that.
    Recently the funding that we have received has enabled us 
to add treatment to our medical monitoring program. This 
integration has been critical in affording responders 
streamlined access to high quality standardized and diagnostic 
and treatment services with clinicians who have unsurpassed 
diagnostic and treatment experience. Thus, needed service 
provision for responders and programs have already been 
developed and established with successfully operating federally 
funded initiatives. The New York Fire Department and Mount 
Sinai centers of excellence are led by NIOSH-CDC and are 
coordinated and operated by expert clinicians well versed in 
the complex nature of World Trade Center health effects and 
outcomes.
    The existing programs are models and they need to be 
preserved and expanded for the sake of those affected. Today we 
must choose to continue to help thousands of those affected by 
September 11th as we are best able, through coordinated, 
experienced and expanded World Trade Center centers of 
excellence, by providing responders with excellent medical and 
mental health services, we can help them to stay in their jobs 
or begin to work again. We can help them return to their normal 
lives and we can provide with some hope for the future.
    As you are likely aware, Federal funding for the World 
Trade Center treatment services is due to run out before the 
end of this fiscal year. Federal funding for the monitoring 
program, which was provided for the first 5 years of what we 
anticipate will be 20 to 30 years of needed funding, will also 
run out in July 2009. We implore you to keep these programs 
alive, as a lifeline for the World Trade Center responders.
    Thank you very, very much.
    [The prepared statement of Dr. Herbert follows:]
    [GRAPHIC] [TIFF OMITTED] 34912.051
    
    [GRAPHIC] [TIFF OMITTED] 34912.052
    
    [GRAPHIC] [TIFF OMITTED] 34912.053
    
    [GRAPHIC] [TIFF OMITTED] 34912.054
    
    [GRAPHIC] [TIFF OMITTED] 34912.055
    
    [GRAPHIC] [TIFF OMITTED] 34912.056
    
    [GRAPHIC] [TIFF OMITTED] 34912.057
    
    [GRAPHIC] [TIFF OMITTED] 34912.058
    
    Mr. Towns. Thank you.
    Mr. Bethea.

                   STATEMENT OF MARVIN BETHEA

    Mr. Bethea. Good afternoon, Mr. Chairman. I would like to 
take this time to thank our elected officials for giving me the 
opportunity to testify at this hearing.
    My name is Marvin Bethea and I was a New York City 911 
Paramedic for the private hospitals. When I was dispatched by 
the New York City Fire Department from the borough of Queens to 
respond to the World Trade Center, I did. As I crossed the 59th 
Street Bridge, I was informed by phone that a big jetliner had 
crashed into the second tower. We knew that this was no 
accident, this was a terrorist attack.
    Did we say, ``We shouldn't go to this, it is a terrorist 
attack?'' Absolutely not. Because we understood we had a duty 
to act and a responsibility to protect the city, State and 
country that we loved so much. I survived the collapse of both 
towers, and here we are 5 years later and we are fighting for 
health care and financial compensation. Can you imagine if it 
took me 5 years to respond to the World Trade Center? What 
would my city, State and country think of me? I, like so many 
others, did what President Kennedy asked of us when he said, 
``Ask not what your country can do for you; ask what you can do 
for your country.''
    What did doing for our country get us? We got sick, we got 
injured, and financially ruined. I went from being a happy, 
hard-working paramedic to becoming a disabled paramedic with 
numerous health problems. The last I worked was January 8, 
2004. I went from taking two medicines, as you see before you, 
to currently now I am taking 15 medicines. And yet they say we 
are not sick. I am a broken man that has been given a slow 
death sentence. And I pray to God every day that I don't 
develop any new health problems, like cancer.
    I saw and heard my government promise on a city, State and 
Federal level that we wouldn't be forgotten. They forgot. You 
can't tease us now by allocating some funds for treatment that 
will only last maybe a few months. People are starting to get 
treatment, only to be threatened with the fact that it may not 
last for only a few months. That is cruel. This is equivalent 
to man who hasn't eaten for the past 3 weeks and now you give 
him steak. You ask him, do you like that steak? And he has 
three bites out of that steak and tells you that it is the best 
steak he has ever had, and then your response is, enjoy it, 
because you are not going to get any more. Like I said before, 
that is very cruel.
    I am extremely grateful for the $25 million President Bush 
has pledged. Here is the problem with that. Senators Clinton 
and Shumer's 9/11 Heroes Health Improvement Act calls for $1.9 
billion in funding. Giving $25 million, it is like me asking 
you, can I borrow $100,000 and you say, see me today and I will 
take care of you. When I see you, you give me $10 and act as if 
you are doing me a favor. It is imperative that treatment 
centers like the Mount Sinai Health for Heroes Program are 
continually funded. Mount Sinai and other programs like them 
are for occupational health doctors. These doctors are 
specially trained and know what to look for and treat the 
horrible things that we have been exposed to.
    Financial compensation is another absent component of this 
equation. It is no fault of our own that we cannot work any 
more. We need to pen up the 9/11 Victims Compensation Fund like 
it was. What good is treatment if I am sleeping in my car and I 
have lost my family? If I don't have high blood pressure or 
depression, I will have it now for sure. The military has a 
saying, we leave no soldier behind. September 11th was an act 
of war against this Nation. You must not leave anyone affected 
by 9/11 behind.
    I would like to take a special opportunity to thank the 
elected officials that I have personally worked with, Senator 
Clinton, Congresswoman Maloney, Congressman Fossella, 
Congressman Nadler, Congressman Hinchey and Congressman Shays 
for their support and staying with us. God bless all of you.
    Thank you again for this opportunity.
    [The prepared statement of Mr. Bethea follows:]
    [GRAPHIC] [TIFF OMITTED] 34912.059
    
    [GRAPHIC] [TIFF OMITTED] 34912.060
    
    Mr. Towns. Thank you very much, Mr. Bethea, for your moving 
testimony.
    Mr. Sferazo.

                 STATEMENT OF JONATHAN SFERAZO

    Mr. Sferazo. Chairman Towns and our bipartisan subcommittee 
congressional members, I say thank you. Hello, everyone. I am 
honored to have been asked to give testimony today to the 
experiences I have had with the September 11, 2001 tragedy. My 
name is Jonathan Sferazo, I am a disabled union iron worker 
from Local 361, Brooklyn, NY. We have created the metropolitan 
area's skyline.
    I responded to the disaster on the morning of September 
12th. The Brooklyn Battery Tunnel was our avenue of approach. 
We opened up West Street with the removal of collapsed cars and 
trucks and debris, all the way to the South Tower. I am typical 
of anyone who stayed approximately 29 to 32 days at that site. 
My medical and psychological conditions are reactive airway 
disease, restrictive airway disease, sinusitis, continual lung 
infections, PTSD, anxiety, depression, sleep apnea, and 
gastroesophageal reflux disease.
    None of this you would have expected from someone who ran a 
5 minute and 30 second mile when I was in high school. I never 
had a pulmonological problem, and I want everybody to make sure 
they understand that, prior to 9/11. Nor would I ever have been 
certified by the New York State Department of Environmental 
Conservation for wildland search and rescue, certified by the 
New York State DEC and Stonybrook.
    So you see, I went to Ground Zero because I wanted to help 
find and save human life. If I am to be the voice of the 
responder, then know that I am outraged by the lack of 
responsibility and the loss of obligation that this 
administration has taken toward us. We are clearly being shown 
that we are expendable. President George Bush came to the Trade 
Center site and told us, we will never forget. Mr. Chairman, he 
forgot, sir.
    We want to know if those of us who are so severely 
afflicted have to lose all we have worked for to be eligible 
for social services or if we will ever be given what we were 
promised?
    We have heard too many times, as I have heard here today 
myself, why weren't you wearing a mask? Now, hear my answer and 
the answer loud and clear. Because we were given paper masks 
after several days that continually clogged up and we were told 
by our mayor at that time, and I am not referring to our Mayor 
Bloomberg presently, members of the Centers for Disease 
Control, members of the EPA and Christy Todd Whitman that the 
air quality was acceptable.
    Also, I ask you to put yourself in our place. When we got 
to the Trade Center site, most of us had never been thrown in 
this kind of a situation before. You had fighter jets flying 
overhead with their sonic boom, helicopters hovering above the 
skyscrapers. You had emergency whistles blaring above the noise 
of the equipment that we were operating, military personnel, 
police. Do you honestly think, and I look at you all and ask 
you directly, do you honestly think, knowing that there were 
people in that pile, do you think we were concerned with our 
health, after we had been given a silent message that it was 
safe and acceptable?
    I am here today, Mr. Chairman, Members of Congress, and all 
the members who are listening to this voice of mine, I am here 
because I care and I have cared from the beginning. If I 
didn't, I never would have gone down there. We are trying, 
because of our experiences, to get this much-needed health 
care. Marvin Bethea and myself, we created a not-for-profit 
organization called the Unsung Heroes Helping Heroes. We are a 
licensed 501(c)(3) and we did this because we saw no response 
from our administration and we saw the funding was going to be 
running out, starting in 5 years.
    I am also here to express the outrage from all of us that 
were involved in that disaster in that something hadn't been 
done immediately. I thank everybody here for their involvement 
and for hearing me today.
    [The prepared statement of Mr. Sferazo follows:]
    [GRAPHIC] [TIFF OMITTED] 34912.061
    
    [GRAPHIC] [TIFF OMITTED] 34912.062
    
    Mr. Towns. Thank you very much, Mr. Sferazo.
    I will call on the ranking member to go first, then I will 
call on you, Mrs. Maloney.
    Mr. Bilbray. No, I will yield, Mr. Chairman.
    Mr. Towns. Mr. Bilbray yields.
    Mrs. Maloney. Thank you. First of all, I really want to 
thank the chairman and Ranking Member Bilbray for holding this 
hearing. It is critically important. I requested it, along with 
my colleague, Vito Fossella. I regret that I was on the floor 
with a bill that was one that I authored that actually passed, 
which was exciting, also very important to the city of New 
York, the CFIUS process to have a better review of challenges 
that may harm our homeland security and encourage foreign 
investment. There is another meeting back on the floor, so I am 
going to have to get back, I apologize.
    I want to thank everybody on this panel. You are really 
true heroes and heroines. Many of our friends and neighbors who 
perished on 9/11, they were victims. But the men and women who 
went down there to work, that was their choice, and to protect 
and work to save other people. So in my opinion, they are the 
true heroes and heroines, along with the people that have made 
a commitment with their life work to help them and to protect 
them and to try to make them well again.
    I have a few questions. I first want to say, we have been 
making some progress, not enough. We were really pleased with 
the $25 million that was a placeholder for treatment. This was 
the first time we had gotten a line in the Federal budget, and 
we were pleased with it, but I do want to say that it has been 
a long, hard fight. The administration has really fought us 
every step of the way. First, they opposed the original $90 
million in funding for medical monitoring, then they actually 
rescinded, it is hard to believe, but rescinded the $125 
million in the 2006 budget for 9/11 help. The administration 
resisted, when the New York delegation worked successfully with 
our two Senators to restore that funding and to get the first 
$75 million dedicated for treatment. They fought us when Mr. 
Fossella and I pushed to have one person put in charge and 
responsible for 9/11 health. And after the administration 
finally appointed someone to coordinate the 9/11 health issues, 
6 months later, in September they recreated the wheel and 
started a brand new task force, chaired by Mr. Agwunobi.
    Five and a half years after the attacks, we still do not 
have a plan to monitor everyone who was exposed to the deadly 
toxins and to treat everyone who is sick. I understand that Dr. 
Agwunobi made clear in his testimony this afternoon that area 
residents, workers, and school children would not be included 
in any plan they came up with. This is unacceptable. Everyone 
exposed should be monitored and everyone who is sick should be 
treated. That is the least that we can do as a group as a 
grateful Nation for the sacrifices of others.
    As for maintaining the current programs that you have 
testified about, I have concerns that for ideological reasons 
or others that they will not intend to fund the centers of 
excellence, which many of you represent. Can you tell me why 
that would be a mistake, not to fund the centers for 
excellence? I open it up to Drs. Herbert, Prezant and Reibman, 
since you are in direct line of these centers for excellence. 
What would it mean if these centers for excellence were not 
funded?
    Dr. Prezant. This is Dr. David Prezant from the New York 
City Fire Department. I very much appreciate your support and 
your question. We are one of three centers of excellence and 
also along with the New York City Police Department that have 
spent a tremendous amount of time taking care of these 
patients. The New York City Fire Department, each one of these 
centers of excellence is unique. I am going to talk about the 
unique aspects of my center of excellence.
    The New York City Fire Department is unique for a variety 
of reasons. Our cohort, our group of 16,000 firefighters, EMS 
workers and retired firefighters that came to the 9/11 site on 
those days was the highest exposed group. They were there, most 
of them, over 2,000 during the collapse, nearly 8,000 during 
the next 36 hours and the rest of them over the next days of 
the first week. They continued to work there until the end of 
the year. They are the group with pre-9/11 data. And because of 
that pre-9/11 health data, we have been able to compare in an 
objective fashion, scientifically, what has happened to them 
after 9/11. We were able to document that in the first year, 
the average drop in pulmonary function for our work force was 
375 milliliters. That is 11 times what we saw annually in the 5 
years before 9/11.
    Only through a center of excellence with pre-9/11 data and 
then with longitudinally repeated data, can you come up with 
that type of science. In the meetings that we had earlier 
today, before the session went into temporary recess, we heard 
that there was not adequate science. We disagree with that. The 
New York City Fire Department has published nearly 20 papers, 
scientific peer-reviewed papers, documenting these problems. We 
are very soon going to be coming out with a paper showing that 
sarcoidosis, a lung disease, was increased in the years after 
9/11 in our cohort.
    The only way to do that is through a center of excellence 
that is able to keep the group together. A fee for service 
program that would destroy the centers of excellence and 
prevent this work from going forward, both scientifically and 
from a treatment perspective, in terms of serving our group, 
providing them the very necessary expert work that Dr. Herbert 
has been talking about in her testimony.
    Mrs. Maloney. Thank you.
    Dr. Reibman, would you like to add to that?
    Dr. Reibman. Thank you very much for inviting me. Let me 
begin to answer that by explaining where we are coming from and 
the group that we have been taking care of. Again, earlier this 
morning we heard that there is not data, or not adequate data 
on the health of the population.
    Including the residents. And we run an asthma program at 
Bellevue Hospital, which is a public hospital associated with 
New York University Medical Center. At that time, we were 
concerned that there wouldn't be adequate lung protection for 
the residents in lower Manhattan. So in cooperation with the 
New York State Department, we were able to document in a 
controlled study the increase in symptoms of residents living 
in lower Manhattan, compared to residents a distance away. In 
fact, there was an almost sixfold increase in symptoms of 
asthma in the residents who lived in Lower Manhattan.
    Because of that, we began looking at a number of community 
treatment programs for residents that were not funded by anyone 
in our city or not the Federal Government. A year ago, we were 
funded by the American Red Cross for our program to care for 
residents, as well as responders. And this September, we were 
very pleased to receive funding from New York City to take care 
of the responders and residents, as well as office workers.
    We now currently have a program in place for responders, 
residents, and office workers, many of whom returned to work 1 
week after the collapse of the buildings. What this has enabled 
us to do, as you heard from both Dr. Herbert and Dr. Prezant, 
is that we can see people so we can start to understand that 
there are diseases in individuals who have been exposed. This 
is particularly important for the residents who may have been 
going to a diverse number of physicians and may not be plugged 
into a treatment program. But because we are seeing postures of 
disease and patterns of disease, it allows us to see the full 
effects of exposure. That is a very important reason for a 
center of excellence.
    The second reason, we keep talking about treatment, but we 
actually don't really completely understand what the disease 
are we are treating or how to treat them. So unless we work 
with the centers of excellence and work on ways to understand 
the diagnosis and look at treatment to see whether treatments 
are working or not working, we will not know how to treat the 
disease symptoms.
    Finally, the third reason for centers of excellence is that 
we need to continually monitor these diseases. We will not be 
able to keep up with the emergence of diseases, hopefully not 
cancerous, but we would like to be ready in case we see that, 
other diseases that might not be as common, we will not be able 
to identify those unless we are seeing them in centers of 
excellence.
    Mr. Towns. We are going to give a second round, we would be 
glad to do so. But you are way over your time.
    Mrs. Maloney. I appreciate the chairman's indulgence. I 
appreciate it very much. Thank you so much for having this 
hearing. My constituents, I would say, all New York City and 
all those who suffer are deeply grateful, Mr. Chairman, for 
your leadership. Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] 34912.063

[GRAPHIC] [TIFF OMITTED] 34912.064

    Mr. Towns. I appreciate your moving it forward, too. Thank 
you so much.
    I now yield to the ranking member.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Dr. Herbert, I will give you the shot.
    Dr. Herbert. Thank you so much.
    In addition to Dr. Prezant and Dr. Reibman's comments, I 
would add a few other things that I completely agree with what 
they laid out. I mean, first, frankly, I think it would be 
inhumane to end these programs now. I don't know a better way 
to describe it.
    In terms of the group that we are seeing, which is a very 
diverse group, and we have in our monitoring program about 15 
percent of our patients do not speak English, they work for 
multiple employers. We have people, as I said earlier, who came 
in from around the Nation. We would lose the ability to track 
and identify disease in this very disparate group.
    The other thing is that as Dr. Reibman was alluding to, the 
diagnosis and treatment of World Trade Center illnesses is not 
straightforward. It is very complex. We are seeing emerging 
conditions, we don't fully understand the entire nature of what 
we are seeing. We know at Sinai, we have seen unfortunately 
responders who have gone to other providers, as Dr. Reibman 
mentioned, maybe had seen doctors who were not so tuned in to 
the nature of World Trade Center health problems. We frankly 
have patients who are being seen by other doctors and were 
either not ever diagnosed correctly or were misdiagnosed. That 
has had very serious consequences for some of our patients.
    Finally, with respect to the folks, and we are seeing the 
20,000 plus responders from the New York, New Jersey, 
Connecticut metropolitan area and the Nation, we know that our 
patients are going to age, they are going to retire, they are 
going to be diffusing across the Nation. If we don't have a 
center of excellence with the capacity to track people 
nationally, we will lose the ability to follow that group over 
time, and they will lose access to the state-of-the-art 
screening and treatment that we feel they need so desperately.
    Mr. Bilbray. Following upon the long-term impacts, I think 
we all agree that one of the major things we can do to reduce 
the adverse impact after exposure has occurred is behavioral 
activities that may aggravate that. We all know what the No. 1 
behavioral activity that aggravates particular exposures are. 
What percentage of the at-risk population do you think are 
engaged in smoking at this time?
    Dr. Herbert. I can look in our environmental health 
perspectives paper that I referred to. It was lower than the 
population norms. Now, it may have been that people had smoked 
previously, and have become ill and have stopped.
    Mr. Bilbray. But that is in the past, right? My biggest 
concern here is what can we do to proactively now to avoid 
problems in the future? I think there is too much assumption 
that the damage has been done, and not enough assumption of, 
there is a whole lot of things we can do now that can help to 
reduce the risks, not only for those who are exposed, but of 
future exposure.
    Dr. Herbert. I can pull out the number of smokers in our 
population. But also I would say, additionally, we have also 
found that because our patients are getting depressed, they are 
also tending to sometimes not eat----
    Mr. Bilbray. Just so you know my background, I was a member 
of the State Air Resources Board in the State of California. 
Those of you in New York have been smart enough to follow our 
leadership on a lot of stuff when it comes to air exposure. 
[Laughter.]
    And the one thing we have run into is that the level of 
risk for exposure just skyrockets when you fall into the 
population that is continuing to smoke. I hear you guys are 
finally catching up with us on the smoking issue, too. I am 
just wondering if anybody is out there talking about, and this 
is where we get in the conflict, because the mental health 
people will justify not doing the cessation programs and 
actively pursuing getting people off of that behavior, because 
of the mental health problems that drive them toward the 
behavior.
    Are we talking out there openly and frankly about trying to 
make sure that those who are exposed get off of the consumption 
of tobacco products because of the huge increase in exposure?
    Dr. Herbert. I would like to defer the question to Dr. 
Prezant, who I think has been a leader in that area.
    Mr. Bilbray. OK, Doctor.
    Dr. Prezant. And then of course, if there is time, other 
people can tell about their cohorts. We actually have asked 
that question from day one in our cohort in our group of 
firefighters. We know exactly how many smoke, 15 percent, which 
is less than the 24 percent that is on average in New York 
City. We instituted, along with some help from the Department 
of Health of New York City and various different expert 
organizations throughout the country. We instituted an 
aggressive tobacco cessation program in the first year and were 
able to reduce that smoking rate by half, and continue to offer 
that tobacco cessation program for free to every one of our 
members.
    But most importantly, in addition to this, and I agree with 
you completely, long-term health effects may have a synergy 
with tobacco smoking, we have learned that from California and 
from every other study.
    Mr. Bilbray. Asbestos exposure.
    Dr. Prezant. Absolutely. But I do want to stress to you one 
thing and one thing right away, is that we have statistically 
analyzed the group that is medium sick and the group that is 
most sick in the New York City Fire Department from the World 
Trade Center. Tobacco smoking was not a statistically 
significant co-variant. It will be in the future, and that is 
why we are taking these proactive steps.
    Mr. Bilbray. I am glad you clarified that, because we know 
that the impact does not show up in 5 or 10 years. But it will 
show up in the future. I just think here is one place where a 
little tough love, and we run into it with firefighters again 
and again. A little tough love about doing everything we can to 
get them away from the behavior that is going to hurt them 
severely, not just treating those things that have happened to 
them, but what they are doing to themselves, too.
    I just bring that up as a child of a victim of tobacco 
consumption. My father passed away very early in life because 
he didn't do the right thing and get off that. But now we have 
an exposed population that is at such an aggravated risk that 
there is no justification, they try to avoid it.
    Ms. Gibbs, let me shift way over in saying the coordinator 
that the Mayor wants, what kind of collaborative, how can we 
coordinate with the coordinator? Where is the coordinator going 
to go and what is the coordinator's job being proposed for?
    Ms. Gibbs. I think this is an example of how the centers of 
excellence and the registry work will benefit not only the 
people who are able to walk through the doors of the three 
centers of excellence, but in fact serve those that are 
suffering from the conditions who live in places far across the 
United States. And your example of the treatment regimens that 
people should be following who have suffered the positions is a 
good one to bring light to, to how the coordinator will use the 
resources of the office of health and mental hygiene, the 
creation of our Web based application that will provide 
knowledge to not only those who are suffering, but physicians 
as to what the medical guidelines are to help to assess the 
conditions and to understand the best treatment interventions.
    So the work of the coordinator will be not just to assist 
those who are in the city government that are working with 
agencies and continue to have direct contacts, but are living 
far and wide and need to be kept abreast with the latest 
developments.
    Mr. Bilbray. Thank you very much. My time has expired.
    Mr. Towns. Thank you very much.
    Let me just ask a few questions, then we will go to our 
colleague from New York. Let me begin with you, Dr. Kleinman. I 
understand that NYPD did a followup study for individuals who 
were exposed to toxins. What did that study indicate?
    Dr. Kleinman. Good afternoon, Mr. Chairman and members of 
the subcommittee. Thank you for permitting me to present our 
case here.
    The NYPD had 34,000 emergency responders since 9/11, all of 
whom have been monitored and tracked by the NYPD's medical 
division since that time. In 2002, a study of 644 emergency 
service members of the Department was performed and the initial 
results of that study, the preliminary data, revealed that 38 
percent of the people who had been tested suffered from 
abnormalities. Of those 38 percent, approximately 25 percent 
were respiratory, another 25 percent were psychological, and 
the remainder were due to either hearing, orthopedic problems 
or other miscellaneous problems. A second followup study to 
that study is scheduled for the spring of 2007.
    But in addition, the NYPD medical division has undertaken 
two 5-year followup studies of two cohorts of individuals that 
represent the largest group of responders that represent a 
cross-section of the population of New York City. One group of 
responders are the emergency service workers for whom we have 
pre-9/11, post-9/11 data. That study should be completed by the 
end of the summer.
    The other 5-year study is a study of other members of the 
Department who have either persistent respiratory symptoms or 
new onset respiratory symptoms. That will be completed in the 
same timeframe.
    The importance of these studies, as I mentioned, is that it 
is the largest group of individuals that responded to the 9/11 
attacks at the various exposure sites. It represents the cross-
section of the general population of New York. The data that 
will emerge from those studies will have wide applications and 
may be extrapolated and may be useful to scientists and 
physicians in terms of planning for monitoring in the future 
and for treatment. I cannot over-emphasize the importance of 
funding that kind of activity. I remind the subcommittee that 
the NYPD medical division has not received any Federal funding 
for any of its undertakings. It has been self-sustained since 
9/11.
    I thank you for the opportunity.
    Mr. Towns. Thank you very much for your comments.
    Dr. Reibman, the Bellevue program is the only program open 
to residents, office workers and others. Are the conditions in 
the group the same as what Dr. Prezant and Dr. Herbert are 
seeing among their group of first responders, workers and 
volunteers?
    Dr. Reibman. The Bellevue program is open to people who 
have symptoms. So it is not a screening program. You have to 
have some complaint to get into the program. The complaints 
that we are seeing are very similar to those that have been 
identified in the FDNY and in the Mount Sinai groups. They 
consist, again, of sinus, cough, shortness of breath, wheezing 
and also probably lower extent, but still some gastroesophageal 
reflux.
    Mr. Towns. Mr. Bethea and also Mr. Sferazo, you have talked 
about the problems you have had with health care. Let me ask 
you this, have you experienced any problems dealing with 
workers compensation?
    Mr. Sferazo. Mr. Chairman, to answer your question, sir, it 
has greatly accentuated the problem. And as you ask me this 
question, about workers compensation, I wish to bring to light 
that not only has this given us a great deal of stress and has 
created a multiple amount of further problems, health-wise and 
psychologically, by the members not getting their workers comp. 
But due to the fact that some of these afflictions, 
sympotomatics if you will, are of a latent nature, if I am 
correct, I am not a medical professional, but I am only 
speaking from what I am finding out, our Governor of the State 
of New York in relation to the workers compensation situation, 
sir, has just created legislation to do away with permanent 
partial disability.
    Now, this, we find, is such a direct blow, because of the 
latency of the type of afflictions received by many New Yorkers 
and members who come from other States who have to file through 
New York workers compensation and their afflictions and 
symptomatic may not show up for a time to come. And being this 
is not something, as in my own particular case and in many 
others, this is not something that we throw to the wind. 
Because this is not something we take for short-term medical 
care and we are going to be resolved of that issue. These are 
going to be long-term health effects.
    Mr. Towns. Let me switch the question to you, Mr. Bethea. 
What has that done to your income? Are you making basically the 
same amount now?
    Mr. Bethea. No, not at all. Before I retired I was making 
about maybe $95,000 a year. Now I am down to, I get about maybe 
$40,000, a little less than that. And I live in New York. And 
again, I lived well, I made a good living, I worked hard. I 
worked three jobs to make the $95,000, because people say, 
paramedics making $95,000, maybe I will be a paramedic. But no, 
that was working very hard with three different hospitals.
    But getting back to the workers comp, it has been an 
absolute nightmare. First of all, I actually had the insurance 
company, the workers comp company wouldn't pay my company that 
supplies my medicine. So my medicine was $1,300 a month, so 
they stopped sending my medicine.
    Finally, they did start paying for my medicine, but this is 
one of the common problems we have. My medicine bill had run up 
to $8,000. I don't fault the company that supplied the 
medicine, they have a right to get paid, and the insurance 
company just would not pay it. I have had to sue my employer 
just to get information turned over to my union so I could get 
a disability benefit from my union.
    So you have to look at the New York City workers comp 
system which has been atrocious, as well as, some of the 
behavior on some of the employers. We are trying to heal and 
trying to move on with our lives. But with the little basic 
things that we are unable to get, it is very hard to do that, 
so this makes you more angry, makes you more depressed and that 
is really unfortunate, because again, we all stepped up to the 
plate and did what we were supposed to do that day. Now 
everyone from the Government, on the city, State and Federal 
level, well, the city has been showing more progress, I must 
say, in all fairness. But the State and Federal Government is 
really lacking. So how do we begin to heal, when we are not 
getting the basic things that we should be entitled to?
    Mr. Towns. Thank you both. I really appreciate hearing 
about that from you personally.
    Now, I turn to a person who has probably done more to keep 
this alive, to make certain that we do not forget what happened 
on 9/11, and the people that really, really responded and of 
course, make certain that they get the proper care. He has been 
fighting very hard, Jerry Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Let me say, before I start asking questions of this panel, 
to all of you, it is good to see you again. You are to be 
congratulated for selflessly taking up this cause and letting 
people know what is going on, for testifying. And to all the 
people from Mount Sinai and Bellevue and so forth, we wouldn't 
be where we are today with recognition, of at least part of the 
problem, the work that is being done at Sinai and Bellevue and 
research that has been done over the years helping people, 
basically eliminated what was a conspiracy by the State and 
Federal Governments to hide this under a rock, to pretend there 
was no real problem, not huge numbers of people sick, just 
wanted the issue to go away and the people to go away. If it 
weren't for the work that some of the people sitting here had 
done, we would be debating that question. There is very little 
denying the reality of this problem.
    I also wanted to say that the work being done at the 
centers of excellence is extremely important. The scientific 
reasons why we want as much direct response as possible will be 
obtained through the centers of excellence, for two reasons. 
No. 1, because you have a lot of doctors who rarely see these 
symptomatology and they are misdiagnosing and not treating 
properly some of the subjects. And the centers where they are 
specializing in these problems are the obvious best treatment 
modality.
    Second, the research component, which is documented. Only 
if people go through these treatment centers will we get proper 
treatment and followup for the studies. So whatever we know, we 
know the funding has to be there. The only way to look at this 
and recognize this, we have to continue that.
    Let me ask you this. First of all, right now, if someone 
wants to be treated at Mount Sinai, be seen at Mount Sinai, and 
by the way, we have to obviously make sure that, that is the 
whole point of this hearing, that there is adequate funding, 
whether it is the $1 billion figure, or the Mayor's $50 million 
dollar figure, there has to be annual treatment that is 
guaranteed for a long time, maybe decades. It should not 
ultimately be dependent on an annual appropriations cycle.
    But let me ask this question now. Let's say someone comes 
to Mount Sinai, and is treated and is given a prescription for 
medicines. Who pays for that medicine?
    Dr. Herbert. Prior to the receipt of the Federal funding 
for the federally funded treatment programs, which was released 
in November 2006, we were fortunate at Mount Sinai to have 
received some philanthropic funding. So essentially we had to 
rely on charity to pay for medication. Now, because there has 
been funding, Federal funding for treatment of responders, we 
are able to use that Federal funding to pay for medications. 
The costs are huge.
    Mr. Nadler. So we have to make sure, because I was struck 
by what Martin Bethea said earlier about the cost of his 
medications. We have to make sure we deliver funding for the 
medications, because of paying for the doctors and the 
equipment.
    Dr. Herbert. May I add something? I think that often there 
is a perception that if people have insurance it means they 
have access to the necessary medications. I think any of us, 
the drug co-pays alone for some of my patients who have what we 
consider Cadillac insurance can be $1,500 a month. I know the 
same is true for FDNY.
    Mr. Nadler. Let me ask Dr. Reibman, talk about the work you 
have done with the studies. Do these studies, do they include 
people who are basically there on 9/11, or do they also include 
people who may not have been there on 9/11 but came back to 
work or live nearby? And have you differentiated, do you have 
data as to the effects, not as their having been there, but 
having worked in the area or lived in the area in months or 
years after?
    Dr. Reibman. The studies that we have published to date 
were of residents. They weren't necessarily people who worked 
in the area, they lived in the area. Some of them, we didn't 
differentiate in those studies whether they were in the dust 
cloud or not. Many of them were not in the dust cloud. Many of 
them moved out of their apartments, or some of them moved out 
of their apartments but came back over the next several months. 
They had to have been back in their apartment by December.
    Mr. Nadler. Do you have data with which you could say with 
any degree of likelihood that there is or is not, in which you 
can evaluate the impact of people living there after the 
attack?
    Dr. Reibman. We cannot do that at this point.
    Mr. Nadler. Granted everything that has been said about the 
necessity and utility, what about people who move away, they go 
to Florida or go elsewhere, or have come here and then gone 
back after a few weeks, would it be a good idea to have centers 
elsewhere. But I presume there will be people who will live 
elsewhere who will not be subject to, or maybe some who remain 
in New York, who will not live near a center of excellence. 
What can we do for those people?
    Dr. Reibman. We have been thinking a lot about that. This 
is a really challenging problem. What I think makes the most 
sense, based on our current health care system within the 
country, is at least for the responders, the 20,000 plus in our 
cohort, is that we have mapped by zip code and we know that we 
have 2,000 plus zip codes, but we also know that many in the 
country, outside of New York, this is nationally. But within 
that group there are clusters. So many of the people who are 
currently in New York are likely to retire to certain areas.
    I think that probably the most rational approach, and one 
that we are working on right now, is to identify sort of mini-
centers of excellence that would be connected to the existing 
centers of excellence that are based at academic medical 
centers, that we do continuing medical education and work very 
closely with providers there. I think you need to have 
oversight, though, central oversight of diagnosis and 
treatment.
    And then I think parallel to that, you would want to work 
with some network of health care providers who could receive 
continuous medical education but who would be more 
geographically accessible for people who live in more outlying 
regions. I know there is one State, for example, where we have 
one responder. We are not going to set up a center of 
excellence there.
    Mr. Nadler. Thank you. We are obviously going to reopen the 
Victims Compensation Fund. We had that, it worked. The Mayor 
has suggested the $1 billion that is sitting there could be 
used in there. That would not necessarily be the only funding 
for it. When we had the Victims Compensation Fund originally, 
people had a choice, they could go to the Victims Compensation 
Fund, or they could use the captive insurance fund.
    Are you suggesting that the mayor's suggestion to re-
establish the Victims Compensation Fund would allow the choice, 
give people the choice to go to the fund or the captive 
insurance fund?
    Mr. Skyler. That is a good question, Congressman. What the 
report recommends is that we eliminate the city's liability, 
liquidate the captive insurance fund, transfer it to the 
Victims Compensation Fund. Because we recognize in one sense 
that resources are scarce. The panel, Deputy Mayor Gibbs and I 
are sitting before you asking for $150 million, $160 million 
annually in Federal funding. That is not just for the city, it 
is for the city, it is for Mount Sinai, the program at 
Bellevue. We believe that if we had the $1 billion, we want to 
use that as basically a first installment in the Victims 
Compensation Fund. When talking about this, there is a 
fundamental issue of fairness. I don't see, especially having 
spent some time with Marvin, John and other first responders, 
why somebody who is hurt needs to show fault. If somebody is 
hurt, the Government should help them and we should compensate 
them for lost earnings, for example. If we don't eliminate the 
city's liability, the city will need to keep the captive 
insurance the way it is currently constituted and then have a 
separate Victim Compensation Fund.
    We also can't ever, because we need a long-term solution to 
this issue, as you suggested in your remarks, this is subject 
to annual appropriations, to some extent. We need a fund that 
can exist year to year. We don't know who is going to come 
forward in the coming years and become a plaintiff against the 
city. The Victims Compensation Fund that existed could handle 
that.
    Mr. Towns. I will have to cut you off. I tried not to.
    Let me just ask, just before I go to Mr. Fossella, I must 
say, I am troubled by something. Why is it all the programs are 
established in Manhattan? I am a Brooklyn Congressman. I am 
just curious.
    Mr. Skyler. I believe that the centers of excellence 
actually have sites outside Manhattan. I believe Robert Wood 
Johnson in New Jersey, the Mount Sinai program especially is a 
consortium, although it is known as the Mount Sinai program. It 
is a consortium of other----
    Mr. Towns. Where is the one in Brooklyn?
    Dr. Prezant. It is the New York City Fire Department 
program, that is centered in the world famous Borough of 
Brooklyn.
    Mr. Towns. Tell me where.
    Dr. Prezant. Nine Metrotech Center, a few blocks from the 
Brooklyn Bridge on the corner of Flatbush and Tillery.
    Mr. Towns. Thank you. I feel a lot better. [Laughter.]
    Now I yield to Mr. Fossella.
    Mr. Fossella. Where is the one on Staten Island? 
[Laughter.]
    Dr. Kleinman. Mr. Chairman, if I may respond, the NYPD's 
treatment program is set up such that members of the NYPD can 
seek treatment from the physician of their choice anywhere, and 
it will be paid for.
    Mr. Fossella. Well, let's jump to that NYPD, Doctor. First 
of all, I didn't say it before, I want to thank my colleague, 
Carolyn Maloney. She is not here now, but for the record, she 
has been instrumental in bringing this together. Thanks for 
your patience throughout this whole hearing, all of you.
    How many NYPD participated in the World Trade Center 
rescue, recovery and cleanup operations, and why do you think 
it is important for NYPD to get separate funding for monitoring 
and research of police officers who were exposed on 9/11?
    Dr. Kleinman. Thank you, Congressman, for that question and 
the opportunity to respond. The NYPD's brave men and women had 
34,000 responders since 9/11, either responding at Ground Zero 
or at one of the other designated exposure sites. At this time, 
there have been 2,500 medical claims made by those responders. 
There are 300 applications for disability due to problems that 
arise from, potentially have arisen from World Trade Center-
related exposures.
    As I mentioned earlier, perhaps when you were out of the 
chamber, the 34,000 members of the largest single responder 
group that has been exposed, and as such, monitoring, tracking 
and obtaining data on those individuals is of vital importance 
to the scientific and medical community and impacts directly on 
our ability to determine what our appropriate measures for 
further monitoring and for treatment. The data that will emerge 
from the studies that will be forthcoming later this year, 
looking at 5-year followups with pre and post-9/11 data will 
help inform the medical community and, I daresay, HHS, which is 
desperately looking for data, will have the largest group that 
represents a cross-section of the population of the city of New 
York from which to make some determinations regarding future 
monitoring and treatment.
    Mr. Fossella. Would anyone else like to add to that?
    All right. For Deputy Mayor Skyler, two questions. You said 
that the estimated gross cost to treat those with potential 9/
11-related illness is $393 million per year. If you can 
explain, what does that mean or elaborate. And related to that, 
you said that the Federal Government will need a minimum of 
$150 million to fill the gaps in treatment and research for 9/
11 treatment and illness. What will that $150 million pay for, 
and how does it relate to the $393 million figure?
    Mr. Skyler. The $393 million, that figure is essentially an 
economic impact on the health care system of 9/11. So that 
includes somebody getting treatment at Bellevue, somebody 
getting treatment at the Fire Department, a police officer, it 
can be a resident. But it can also be somebody who worked in 
lower Manhattan, who lived in New Jersey at the time, was a 
commuter and possibly even moved to Chicago or another part of 
the country, but who has an illness because of 9/11 and is 
seeking care because of that illness, and it associates that 
cost and the estimate. So it is in a sense a national figure of 
how much money is being spent in the health care system, based 
on 9/11 illnesses.
    The $150 million request that the report recommends 
basically says that there are centers of excellence that are 
working that we need to continue and expand. We see an 
increased demand for services at Bellevue. We want to make sure 
we can provide for that, that $150 million assumes that cost. 
It also says that we need to recognize the Federal Government 
has not spent a dime on the police department's health 
monitoring services, and we want to rectify that inequity. It 
also would expand the mental health services available, with 
the findings of the report of the widespread mental health 
impacts of 9/11. And it also will make available a resource to 
the city to advertise and promote the programs it has, to make 
resources available through the Internet, and a couple of other 
smaller recommendations that would have smaller costs than the 
actual treatment.
    Mr. Fossella. Thank you, Mr. Chairman. I yield back.
    Mr. Towns. Let me thank all of you, we really, really 
appreciate your testimony. As you have clearly indicated, we 
still have a long way to go. We look forward to working with 
you in terms of trying to get there.
    So let me thank all of you, and this hearing is adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 34912.065
    
    [GRAPHIC] [TIFF OMITTED] 34912.066
    
                                 <all>

</pre></body></html>
